<html>
<title> - DEPARTMENT OF HOMELAND SECURITY EMERGENCY PREPAREDNESS AND RESPONSE DIRECTORATE FISCAL YEAR 2005 BUDGET</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF HOMELAND SECURITY
                  EMERGENCY PREPAREDNESS AND RESPONSE
                  DIRECTORATE FISCAL YEAR 2005 BUDGET

=======================================================================

                                HEARING

                                 of the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2004

                               __________

                           Serial No. 108-38

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-588                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

          Subcommittee on Emergency Preparedness and Response

                    John Shadegg, Arizona, Chairman

Curt Weldon, Pennsylvania, Vice      Bennie G. Thompson, Mississippi
Chairman                             Jane Harman, California
W.J. ``Billy'' Tauzin, Louisiana     Benjamin L. Cardin, Maryland
Christopher Shays, Connecticut       Peter A. DeFazio, Oregon
Dave Camp, Michigan                  Nita M. Lowey, New York
Lincoln Diaz-Balart, Florida         Eleanor Holmes Norton, District of 
Peter King, New York                 Columbia
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
Mac Thornberry, Texas                Donna M. Christensen, U.S. Virgin 
Jim Gibbons, Nevada                  Islands
Kay Granger, Texas                   Bob Etheridge, North Carolina
Pete Sessions, Texas                 Ken Lucas, Kentucky
Christopher Cox, California, Ex      Jim Turner, Texas, Ex Officio
Officio

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Shadegg, a Representative in Congress From the 
  State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness and Response
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Subcommittee 
  on Emergency Preparedness and Response.........................     4
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
The Honorable Benjamin L. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    23
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    26
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    38
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    32
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    22
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York..........................................    36
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    29
The Honorable Christopher Shays, a Representative in Congress 
  From the State Connecticut.....................................    44

                                WITNESS

The Honorable Michael D. Brown, Under Secretary for Emergency 
  Preparedness and Response, Department of Homeland Security
Oral Statement...................................................    11
Prepared Statement...............................................    13

                                APPENDIX
                   Material Submitted for the Record

Questions for the Record from The Honorable Bennie G. Thompson...    47
Questions for the Record from The Honorable Jim Turner...........    55

 
                    DEPARTMENT OF HOMELAND SECURITY
                  EMERGENCY PREPAREDNESS AND RESPONSE
                  DIRECTORATE FISCAL YEAR 2005 BUDGET

                              ----------                              


                        Wednesday, March 3, 2004

                          House of Representatives,
             Subcommittee on Emergency Preparedness
                                              and Response,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
Room 2322, Rayburn House Office Building, Hon. John Shadegg 
[chairman of the subcommittee] presiding.
    Present: Representatives Shadegg, Shays, Camp, King, 
Gibbons, Granger, Cox, Thompson, Cardin, Lowey, Norton, 
Christensen, Etheridge, Lucas of Kentucky, and Turner.
    Mr. Shadegg. [Presiding.] Good morning.
    The committee will come to order. Pursuant to a unanimous 
consent agreement, opening statements will be limited to the 
chairman, ranking member and the full committee chairman, 
assuming he makes it here, and the full committee ranking 
member.
    Today, we will hear testimony from Under Secretary Michael 
Brown--welcome, Secretary Brown--on the Emergency Preparedness 
and Response Directorate fiscal year 2005 budget.
    A key mission of the Department of Homeland Security is to 
assist the nation to prepare for, mitigate, respond to and 
recover from domestic disasters, including acts of terrorism. 
Specifically, the directorate has a responsibility to ensure 
effective emergency preparedness, build and standardize 
incident response, and aid recovery from terrorist attacks and 
other major disasters.
    Again last year, Mother Nature wreaked havoc on our country 
through snowstorms, a major hurricane and mud slides. 
Unfortunately wild fires also devastated our forests in the 
West, including my own state of Arizona, although man and 
unsound environmental policies played a contributing role in 
those wildfires.
    During the 56 major disasters and 19 emergencies, the EP & 
R Directorate was able to provide assistance to communities in 
need. It was also able to train over 290,000 first responders 
to better prepare them to mitigate and respond to disasters, to 
train and equip its urban search and rescue teams to handle 
events involving weapons of mass destruction, and provide over 
$650 million in grants to fire departments across the country.
    As we look forward to fiscal year 2005, we see that the 
president has requested $5.58 billion for the EP & R 
Directorate, an increase of $956 million. It is important to 
note that a large portion of this increase is due to important 
funding for Project BioShield.
    As you are aware, our subcommittee and the full Select 
Committee on Homeland Security took a leadership role by 
passing H.R. 2122, Project BioShield, which would encourage the 
development of medical countermeasures against weapons of mass 
destruction. Unfortunately, this legislation still remains in 
the U.S. Senate.
    Nonetheless, I am very pleased to see that the directorate 
is proceeding to work with the private sector to develop 
vaccines and drugs to inoculate and treat Americans prior to 
and after terrorist attack.
    However, we still need to act on H.R. 2122, and I join the 
president's call on the U.S. Senate to pass Project BioShield.
    I also want to note the transfer of budget authority for 
the strategic national stockpile back to the Department of 
Health and Human Services.
    HHS had much of the day-to-day responsibility for the 
stockpile, and this transfer makes sense. But it is important 
that the directorate have statutory ability to deploy the 
stockpile in the event of an attack.
    I know that Under Secretary Brown will comment on 
additional highlights in the fiscal year 2005 budget. But I 
want to take time to sound a note of concern.
    While I understand the need to respond to natural 
disasters, I am concerned that the directorate is increasingly 
viewed as the Emergency Response Directorate, not the Emergency 
Preparedness and Response Directorate.
    DHS was created to integrate functions better to prepare 
our nation for acts of terrorism and to mitigate their 
consequences. The other directorates are working to do just 
that.
    My fear, however, is that the EP & R Directorate is viewed 
at least by some in the department and some across the country 
as, ``Oh, those are just the response guys.'' I would like to 
know if, in fact, the EP & R Directorate intends to become just 
the ENR Directorate.
    Based on what is happening in the department, the function 
for preparing for terrorists attacks appears to be shifting to 
the Office of State and Local Government Coordination. If so, 
the directorate is losing one of the important functions given 
to it by Congress, and one that I think is its most important 
function.
    For example, it strikes me that the directorate should have 
a comprehensive inventory of all first responder prevention, 
preparedness and response equipment that exist in the state. 
But is the EP & R Directorate getting that information from the 
Office of Domestic Preparedness and the Office of State and 
Local Government Coordination? I do not know, but I would like 
to find out.
    Congress has spent billions in taxpayer dollars since 9/11 
to improve on our nation's ability to prepare for terrorism, 
but I fear that there may a duplication of that effort and 
wasted dollars if there is not close collaboration with other 
agencies in the department in preparation for acts of terrorism 
and other emergencies.
    Clearly the department has come along way over the past 
year. We are indeed much safer today than we were when the 
department was created roughly one year ago. But we must 
continue to improve.
    I look forward to delving into these questions in greater 
detail with our witness.

  Opening Statement John Shadegg, Chairman, Subcommittee on Emergency 
                       Preparedness and Response

    The Committee will come to order. Today we will hear testimony from 
Undersecretary Michael Brown on the Emergency Preparedness and Response 
Directorate's Fiscal Year 2005 Budget. A key mission of the Department 
of Homeland Security is to assist the nation to prepare for, mitigate, 
respond to, and recover from domestic disasters, including incidents of 
terrorism. Specifically, the Directorate has responsibility to:
        - Ensure effective emergency preparedness
        - Build and standardize incident response
        - Aid recovery from terrorist attacks and major disasters
    Again last year, Mother Nature wreaked havoc on our country in 
snowstorms, a major hurricane, and mudslides. Unfortunately, wildfires 
also devastated our forests in the West, including in Arizona, although 
man and unsound environmental policies played a contributing role. 
During the 56 major disasters and 19 emergencies, the EP & R 
Directorate was able to provide assistance to communities in need. It 
was also able to:
        - Train over 290,000 first responders to better prepare them to 
        mitigate and respond to disasters;
        - Train and equip its Urban Search and Rescue Teams to handle 
        Weapons of Mass Destruction events; and
        - Provide over $650 million in grants to fire departments 
        across the country.
    As we look forward to Fiscal Year 2005, we see that the President 
has requested $5.58 billion for the EP & R Directorate, an increase of 
$956 million. It is important to note that a large portion of the 
increase is due to important funding for Project Bioshield.
    As you are aware, our Subcommittee and the Full Select Committee on 
Homeland Security took a leadership role by passing H.R. 2122, which 
would encourage the development of medical countermeasures against 
weapons of mass destruction. Unfortunately, this legislation is still 
stuck in the Senate.
    Nevertheless, I am glad to see that the Directorate is proceeding 
to work with the private sector to develop vaccines and drugs to 
inoculate and treat Americans prior to and after terrorist attacks. 
However, we still need to act on H.R. 2122, and I join the President's 
call to the Senate to pass Project Bioshield.
    I also want to note the transfer of budget authority for the 
Strategic National Stockpile back to the Department of Health and Human 
Services. HHS had much of the day-to-day responsibility for the 
Stockpile, and this transfer makes sense, but it is important that the 
Directorate does have statutory ability to deploy the Stockpile in the 
event of an attack.
    I know that Undersecretary Brown will comment on additional 
highlights in the Fiscal Year 2005 budget, but I wanted to take time to 
sound a note of caution. While I understand the need to respond to 
natural disasters, I am concerned that the Directorate is increasingly 
viewed as the Emergency Response Directorate, not the Emergency 
Preparedness and Response Directorate.
    DHS was created to integrate functions to better prepare our nation 
acts of terrorism and to mitigate their consequences. The other 
Directorates areworking to do just that. My fear, however, is that the 
EP & R Directorate is viewed as ``oh, those are just the response 
guys.'' I would like to know if in fact the EP & R Directorate intends 
to become the ER Directorate.
    Based on what is happening in the Department, the function for 
preparing for terrorist attacks appears to be shifting to the Office of 
State and Local Government Coordination. If so, the Directorate is 
losing one of its important functions.
    For example, it strikes me that the Directorate should have a 
comprehensive inventory of all first responder prevention, 
preparedness, and response equipment that exists in the States. But, is 
EP & R getting that information from the Office of Domestic 
Preparedness/Office of State and Local Government Coordination?
    Congress has spent billions in taxpayer dollars since 9/11 to 
improve our nation's ability to prepare for terrorism, but I fear that 
there may be duplication of effort and wasted dollars if there is not 
close collaboration with other agencies in the Department in 
preparation for acts of terrorism and other emergencies.
    Clearly, the Department has come a long way over the past year, but 
we must continue to improve. I look forward to delving into these 
issues in greater detail with our witness.

    Now I would like to turn the ranking member of the 
subcommittee, Mr. Thompson, for any opening statement he would 
like to make.
    But before I do, I want to let members and our witness and 
anyone in the audience know that we will have rotating chairmen 
in this position at times today. Chairman Cox and I both have 
an important markup downstairs in the Energy and Committee 
Commerce in which we expect votes and, as necessary, we will 
have to excuse ourselves from this hearing at times in order to 
make those votes in that hearing.
    Now let me call upon the ranking member, Mr. Thompson, for 
his opening statement.
    Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    Good morning, Mr. Under Secretary.
    Mr. Under Secretary, in June of last year, when you 
testified before the full committee, I stated that in its 
former life FEMA and EP & R Directorate was widely viewed as a 
success story by becoming more responsive to communities before 
and after major disasters and emergencies. And I wanted to be 
sure that EP & R could effectively perform its traditional 
disaster response and recovery mission, given DHS' primary 
focus on terrorism, prevention and preparedness. I wanted to be 
sure that we were ready for the next major earthquake or 
hurricane or, in my district, the next major flood.
    In your written testimony, you stressed a continued 
commitment to all hazard emergency planning. But, Mr. Under 
Secretary, the president's budget ignores that commitment.
    Let me highlight three examples from the president's budget 
that I believe prevents you and your employees from truly 
protecting this nation from all disasters and emergencies.
    First, the budget transfers the Emergency Management 
Performance Grant Program to the Office of Domestic 
Preparedness and reduces the grant program by $10 million from 
fiscal year 2004 level.
    In addition, the administration proposes that only 25 
percent of these grant funds will be able to support state and 
local emergency management personnel salary. This program is a 
principal source of funding for state and local emergency 
management agencies, your partners in all hazard preparedness.
    A March 2002 survey by the National Emergency Management 
Association found that an additional 5,212 emergency management 
positions are needed, with 3,960 of those positions being full-
time directors needed to manage the program.
    How do you propose to respond to and recover from major 
disasters when your budget would eliminate many of these state 
and local partners?
    Second, the president's fiscal 2005 budget request for the 
FIRE grant program represents a $250 million, or 33 percent, 
reduction from fiscal 2004 levels.
    More troubling, however, is the fact that the budget 
proposes that priority be given to grant applications enhancing 
terrorism preparedness and limits the use of FIRE Grant funds 
to only four of the original 14 uses authorized by Congress.
    The FIRE Grant program was created by Congress in order to 
meet basic critical needs of the firefighting community, which 
a December 2002 study by your U.S. Fire Administration and the 
National Fire Protection Association found to be significant.
    Third, the president's budget eliminates the Metropolitan 
Medical Response System Program. The primary focus of the MMRS 
Program is to develop or enhance existing state and local 
preparedness systems to effectively respond to a public health 
crisis.
    Again, how can we effectively respond to public health 
emergencies without effective planning and training at the 
state and local levels?
    In our continuing efforts to prevent and prepare for acts 
of terrorism, we must not destroy the organizations and 
structures that have been created to prepare for, respond to 
and recover from floods, hurricanes, tornadoes and other 
disasters. Yet the president's request seems to ignore the 
critical role that these institutions play in our preparedness 
efforts.
    There are elements in this budget request that are worthy 
of recognition.
    The administration is again requesting $200 million from 
the Flood Map Modernization Initiative. This initiative is 
important to flood-prone states, such as Mississippi. I am glad 
to see an adequate and timely budget request for the disaster 
relief fund.
    Last year we were experiencing major floods in Mississippi. 
You came very close to running out of money in the disaster 
relief fund, and nobody wants to go through that again this 
year.
    Mississippi endured two federally declared disasters last 
year. We are grateful for and in continued need of FEMA's 
program and expertise. I look forward to your testimony and 
working with you to preserve the programs that protect our 
communities from all disasters.
    Mr. Shadegg. Thank the gentlemen for his opening statement.
    It is my understanding that Chairman Cox does, in fact, 
plan to attend and that he is en route, however he is not here.
    I would propose that we call upon the ranking member, Mr. 
Turner, for his opening statement and would ask with unanimous 
consent that that be done without objection to Mr. Cox being 
able to give his opening statement when he arrives.
    Is there any objection?
    There being none, so ordered.
    And I would call upon Mr. Turner, the ranking member of the 
full committee, for his opening statement.
    Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Brown, thank you for being here with us today. We 
all look forward to hearing your presentation regarding your 
directorate's 2005 budget request.
    As I begin, I wanted to review just briefly the history of 
the principal component of your directorate, FEMA, and talk 
about the impact of some of the changes that have occurred, and 
suggest some of the things that hopefully can be done to 
continue of what was historically the very strong reputation, 
particularly among our states and locales, of FEMA.
    You may remember back in the early 1990s, we went through a 
period of time when Congress was calling for the abolishment of 
FEMA. Senator Hollings called FEMA ``the sorriest bunch of 
bureaucrats I have ever known,'' in the wake of FEMA's much-
criticized response to Hurricane Hugo in 1989.
    Senator Barbara Mikulski of Maryland complained in 1992--
she said, ``I am outraged by the federal government's pathetic, 
sluggish, ill-planned response to the devastating disaster 
wrought by Hurricane Andrew.''
    And yet it seems that by the end of the 1990s, FEMA had 
turned around. There was a study conducted by George Mason 
University in March of 2000 that praised FEMA for its 
reinvention efforts, and held up the organization as a model of 
results-based management for both the public and the private 
sector.
    It seems that FEMA had reinvented itself in a way that made 
it, in fact, one of the finest agencies of the federal 
government. FEMA employees seemed to be proud of their 
accomplishments and eager to work for that agency.
    It is troubling when we saw the recent report of the 
Partnership for Public Service, published last November, that 
rated FEMA today as the worst agency for federal employees to 
work, ranking FEMA 28--last among all federal agencies.
    It is difficult to understand what happened in FEMA to 
bring that about. I think it is very important for us to try to 
analyze why that change occurred and how we can be sure that we 
can turn this change around.
    I also am beginning to hear from some of our state and 
local communities about their relationship with FEMA.
    As we all know, our states and our communities depend very 
heavily on FEMA for resources and for expertise. And although 
our states have been very active in trying to increase their 
focus on terrorism preparedness, they still know that they must 
maintain the ability to cope with natural disasters.
    It is troubling when I look at the budget request when I 
see that the administration proposes that we cut the FIRE 
grants by $246 million and cut Emergency Management Performance 
Grants by $9 million. This budget limits the ability of our 
states to get the job done.
    With regard to the Emergency Management Performance 
Grants--the proposal that limits the use of funds our personnel 
has certainly been met with almost unanimous opposition by the 
National Emergency Management Association.
    So when I see those proposals, it causes me grave concern 
that we may be moving back to a period--as I mentioned, similar 
to the early 1990s--where FEMA does not have the support of the 
Congress or the support of our states and local governments. 
And I think we need to be very careful.
    We all understand the complexities of massive 
reorganization. And I know, Mr. Secretary, you have your hands 
full trying to get the job done.
    But I do hope we can be very careful, particularly in these 
areas of funding--in the limitations on use of funds. As you 
know, the Emergency Management Performance Grants is a 50/50 
matching program, but to limit our states and their ability to 
use those funds for personnel, I am told is going to, in some 
cases, result in a 60 percent reduction in employees at the 
state level.
    So those things concern me, combined with what I perceive 
to be some tension that would normally be expected with 
reorganizations.
    But I know we have some fine career employees that have 
been with FEMA for many, many years, and I do hope that we can 
listen to them and be sure we maintain the strong standing and 
relationship between FEMA and our states and local governments.
    And finally, I have also some concerns about our progress 
in trying to build our capabilities for public health and the 
public health preparedness sector, to deal with the threat of 
bioterrorism.
    As you know, there was an exercise conducted not too long 
ago, the TOPOFF2 exercise, that raised the question, upon its 
completion, as to who had the real authority, the final 
authority to deploy the strategic national stockpile; was it 
DHS or HHS?
    As I look at the interaction between those two agencies, it 
seems to me that we have to be very careful that we make a 
clear distinction as to what responsibilities the two agencies 
have, and who will make the decision regarding the issues which 
could be so critical in the event of a bioterrorist attack.
    So by raising those two concerns, I hope you will be able 
to address them as you share your testimony today with the 
committee.
    And again, I ask for your careful consideration of those 
two matters with full appreciation of the major task that you 
face, and the major responsibility that you have in 
reorganizing your portion of the new department.
    Thank you, Mr. Chairman.

  Prepared Statement of The Honorable Jim Turner, a Representative in 
Congress From the State of Texas, and Ranking Member, Select Committee 
                         on Homeland Committee

    Thank you, Mr. Chairman.
    Under Secretary Brown, thank you for appearing before the 
Subcommittee today, and I look forward to your testimony on the 
Emergency Preparedness and Response Directorate's fiscal year 2005 
budget request.
    First, though, I would like to take a few minutes to talk about the 
history of your organization, and some changes that I believe are 
necessary to ensure your success in the future.
    Back in the early 1990's, many in the Congress were calling for the 
abolishment of the principal component in your directorate, FEMA. 
Senator Fritz Hollings of South Carolina characterized FEMA as ``the 
sorriest bunch of bureaucrats I've ever known'' in the wake of FEMA's 
much- criticized response to Hurricane Hugo in 1989. Senator Barbara 
Mikulski of Maryland complained in 1992, ``I am outraged by the federal 
government's pathetically sluggish and ill- planned response to the 
devastating disaster wrought by Hurricane Andrew.''
    Yet, by the end of the 1990's, FEMA had achieved a complete 
turnaround. A March 2000 study by George Mason University stated that 
FEMA won widespread praise for its reinvention efforts, and held the 
organization up as a model of results-based management for both the 
public and private sectors. A clear mission, needed changes in 
organizational structure, and a shift in the organization's culture to 
a focus on the customer all contributed to FEMA's success. In addition, 
FEMA employees became proud of their achievements and eager to work for 
the agency.
    That is why I am very troubled, Under Secretary Brown, that in a 
November 2003 survey of the best places to work in the Federal 
government conducted by the Partnership for Public Service, FEMA was 
ranked 28th, or dead last, by its employees.
    What has happened to FEMA in the past three years that has resulted 
in the remarkably negative change? How is this drop in morale impacting 
your ability to provide the highest level of service to individual 
citizens and state and local governments? I hope that you found this 
survey as troubling as I did, and that you will describe the measures 
you are implementing to address the needs of your employees.
    The fact is that states and local communities look to FEMA to 
provide the resources and expertise they need to meet a wide range of 
challenges. While our states and local communities have increased their 
focus on preparing for terrorist attacks, at the same time we must 
maintain our ability to cope with natural disasters.
    Yet, the Administration proposes to cut funding for Fire Grants by 
$246 million and Emergency Management Performance Grants by $9 million, 
and limits the ability of states to use these funds to meet the full 
range of their preparedness needs.
    In addition, the President proposes to limit the amount of 
emergency management funds that can be spent on supporting state and 
local emergency planners. I recently spoke before the National 
Emergency Management Association, and their members strongly oppose 
this proposal. The President's budget would, by one estimate, lead to a 
60 percent cut of state and local emergency personnel, exactly at the 
time when we are asking state and local governments to take a more 
active role in emergency planning and response. This does not sound 
like the partnership described by Secretary Ridge and President Bush.
    Finally, I am also interested in understanding the progress you are 
making in building enhanced public health and bioterrorism preparedness 
capabilities--such as the National Disaster Medical System--in 
partnership with the Department of Health and Human Services.
    To win the war on terrorism, and to fully prepare our communities 
for any hazard, we must take full advantage of the demonstrated 
successes of our emergency management community I look forward to 
hearing your testimony, Mr. Under Secretary, and to working with you to 
preserve FEMA's all-hazards mission.

    Mr. Shadegg. I thank the gentleman.
    The chair would now call on the full committee chairman, 
Mr. Cox, for his opening statement.
    Mr. Cox. Thank you, Mr. Chairman.
    I want to thank Chairman Shadegg and our ranking member, 
Mr. Thompson, for the leadership that you have shown on the 
Subcommittee on Emergency Preparedness and Response.
    And I want to welcome again Under Secretary Mike Brown.
    Your directorate, Mr. Under Secretary, is where the 
homeland rubber meets the first responder road, and I look 
forward to your testimony.
    This subcommittee and the full committee have held a 
combined total of 10 hearings and field visits to hear the 
concerns of our first responder community and to assess the 
nation's preparedness and response capabilities.
    Last November, this subcommittee successfully marked up the 
Faster and Smarter Funding for First Responders Act, which, 
with impressive bipartisan support, passed unanimously and is 
now before the full committee.
    The continued leadership of this subcommittee will be 
vital, as the full committee moves to mark up H.R. 3266. The 
bill provides for a more threat-based and cost-effective 
approach to homeland security grants and allows high-threat 
regions, as well as states, to apply for these grants.
    The full committee, by the way, will continue its efforts 
to control spending and focus on threat in two other bills this 
session--one on metrics for the Department of Homeland 
Security's performance and the other an authorization bill to 
help sharpen our spending practices.
    Yesterday, the ranking member of the full committee and I 
were with the president to celebrate the one-year anniversary 
of the department. The president charged us to hold the 
government's feet to the fire. ``None of us,'' he said, 
``charged with defending this nation can rest. We must never 
forget the day when the terrorists left their mark of murder on 
our nation.''
    Taking up the president's charge, we must recognize that 
the mission of the EP & R Directorate is central to the 
Homeland Security counterterrorism mission--to prevent, protect 
and respond.
    Under Secretary Brown, we look forward to hearing the 
strides that your directorate has made over the past year in 
directing its capabilities towards the terrorist threat, while 
maintaining its focus on traditional all-hazard missions.
    Creating the new EP & R Directorate for Congress meant that 
both preparedness and response were going to be incorporated in 
one place. Valuable lessons were learned from FEMA's experience 
in dealing heroically with major terrorist attacks in New York 
in 1993 and Oklahoma City in 1995.
    After the Oklahoma City bombing, the GAO cited FEMA's need 
to cooperate more with law enforcement, to plan better for 
surges in resources demands, and to improve training and 
equipment to counter attacks involving WMD. Such challenges 
were even further magnified in the response to the second 
bombing of the World Trade Center in 2001.
    An all-hazards approach to emergency management has worked 
effectively for non-terrorist missions in the past, but the 
terrorist threat requires more flexible and adaptive programs. 
We need to show that preparedness, not just response, is the 
mission of EP & R.
    As you know, Mr. Under Secretary, Congress, the 
administration and the department have taken steps to improve 
our emergency response system. You have bolstered the 
department's response capabilities and you have developed plans 
to unify incident management.
    Together, we have begun to reform the first responder 
grant-making process so that resources are better leveraged to 
provide essential capabilities to every state and locality.
    In the president's fiscal year 2005 budget proposal, he has 
requested $20 million to support medical response, through the 
enhancement of medical surge and capacity--a crucial need in a 
WMD attack. We look forward to hearing more about this today.
    The National Incident Management System will significantly 
enhance the ability of the EP & R Directorate to collaborate 
with state and local first responders in implementing the 
proposed national response plan. This will unify domestic 
incident management by providing an operational framework for 
responders at all levels of government.
    The department released the Interim National Response Plan 
in October, and the National Incident Management System Plan 
was released last week.
    We expect that you will tell us, Mr. Under Secretary, more 
about these initiatives this morning.
    The committee recognizes, Under Secretary Brown, your 
leadership and the bold steps you have taken to integrate the 
EP & R Directorate into the Department of Homeland Security and 
both to clarify and strengthen its preparedness and response 
capabilities against terrorism.
    I look forward to your testimony today.
    And I want to thank you, Mr. Chairman.

 Prepared Statement of The Honorable Christopher Cox, a Representative 
    in Congress From the State of California, and Chairman, Select 
                     Committee on Homeland Security

    I want to thank Chairman Shadegg and Ranking member Thompson for 
the leadership they have shown on the Subcommittee on Emergency 
Preparedness and Response and welcome again the Undersecretary Mike 
Brown. Your Directorate Mr. Undersecretary is where the homeland 
``rubber hits the first-responder road,'' and I look forward to your 
testimony.
    This subcommittee and the full committee have held a combined total 
of ten hearings and field visits to hear the concerns of our first 
responder community and to assess the Nation's preparedness and 
response capabilities. Last November, this Subcommittee successfully 
marked up HR 3266 the `Faster and Smarter Funding for First Responders 
Act' which, with impressive bipartisan support, passed unanimously and 
is now before the full committee. The continued leadership of this 
Subcommittee will be vital as the full committee moves to mark up HR 
3266, which provides for a more threat- based and cost-effective 
approach to Homeland Security grants, and which allows high- threat 
regions, as well as States, to apply for these grants. The full 
committee, by the way, will continue its efforts to control spending 
and focus on threat in two other bills this session, one on metrics for 
DHS performance and the other an authorization bill to help sharpen our 
spending practices.
    Yesterday, the ranking member and I were with the President to 
celebrate the one year anniversary of the Department. The President 
charged us to hold our feet to the fire: ``none of us charged with 
defending this nation can rest'' he said. ``We must never forget the 
day when the terrorists left their mark of murder on our nation.'' 
Taking up the President's charge we must recognize that the mission of 
the EP & R Directorate is central to the Homeland Security 
counterterrorism mission--to prevent, protect, and respond.
    Undersecretary Brown, we look forward to hearing the strides that 
your Directorate has made over the past year, in directing its 
capabilities towards the terrorist threat while maintaining its focus 
on its traditional all-hazard missions.
    Creating the new EP & R Directorate for Congress meant that both 
preparedness and response missions against terrorism would require new 
capabilities. Valuable lessons were learned from FEMA's experience in 
dealing heroically with major terrorist attacks in New York in 1993 and 
in Oklahoma City in 1995. After the Oklahoma City bombing the General 
Accounting Office cited FEMA's need to cooperate more with law 
enforcement, to plan better for surges in resource demands and to 
improve training and equipment to counter attacks involving weapons of 
mass destruction.
    Such challenges were even further magnified in the response to the 
second bombing of the World Trade Center in 2001. An all-hazards 
approach to emergency management has worked effectively in the past. 
But the terrorist threat requires more flexible and adaptive programs. 
We need to show that preparedness not just response is the mission of 
EP & R.
    As you know, Mr. Undersecretary, Congress, the Administration, and 
the Department have taken steps to improve our emergency response 
system--you have bolstered response capabilities and have developed 
plans to unify incident management. Together we have begun to reform 
the first responder grant- making process so that resources are better 
leveraged to provide essential capabilities to every state and 
locality.
    In the fiscal year 2005 budget proposal, the President has 
requested $20 million to support medical response through the 
enhancement of medical surge capacity, a crucial need in a WMD attack. 
We look forward to hearing more about this today.
    The National Incident Management System will significantly enhance 
the ability of the EP & R Directorate to collaborate with State and 
local first responders in implementing the proposed National Response 
Plan. This will unify domestic incident management by providing an 
operational framework for responders at all levels of government. The 
Department released the interim National Response Plan in October, and 
the National Incident Management System plan was released last week. We 
expect the Undersecretary to tell us more about these initiatives this 
morning.
    Undersecretary Brown, the Committee recognizes and commends your 
leadership and the bold steps you have taken to integrate the EP & R 
Directorate into DHS and to both clarify and strengthen its 
preparedness and response capabilities against terrorism.
    I look forward to receiving your testimony today.

    Mr. Shadegg. I thank the gentleman for his response.
    Again, Mr. Secretary, welcome. We appreciate your being 
here.
    I have a brief amount of time, I would like you to answer 
the first--I am sorry. I would like to get to my questions, but 
I guess we ought to give you a chance to make your statement.
    [Laughter.]
    See how anxious I am to start grilling you?
    You are welcome to make an opening statement. We appreciate 
your being here.

 STATEMENT OF THE HONORABLE MICHAEL D. BROWN, UNDER SECRETARY 
FOR EMERGENCY PREPAREDNESS AND RESPONSE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Brown. Well, thank you, Mr. Chairman. And I also want 
to express my appreciation for the very kind words and the 
things that you had to say in your opening remarks too.
    But I know you are anxious to get to questions, so I will, 
with due haste, speed through this oral statement, so you can 
start grilling me pretty good, you bet.
    My name is Michael Brown. I am the Under Secretary for the 
Emergency Preparedness and Response Directorate of the 
Department of Homeland Security, which does include the Federal 
Emergency Management Agency.
    I am truly honored to appear before you today to talk about 
FEMA's accomplishments of this past year since it became a part 
of the Department of Homeland Security.
    But more importantly, I want to highlight our priorities 
for 2004 and why support of the president's budget request for 
2005 is critical to ensure that FEMA can continue to fulfill 
its mission.
    On March 1st, FEMA celebrated its first full year as a part 
of the Department of Homeland Security. We are proud to be part 
of this historic effort and are more committed than ever to our 
duty as defenders of the homeland.
    We have made significant strides in our first year as a 
component of the department, and we continue to see the 
advantage of and realize the benefits from being a part of this 
larger organization.
    Since March 1st of last year, FEMA has worked to merge 
disaster-related public health programs from the Department of 
Health and Human Services into a unified national response 
capability.
    These programs include the National Disaster Medical 
System, which is designed to provide a single integrated 
national medical response capability to augment the nation's 
emergency medical response capability.
    Another important public health-related program, the 
strategic national stockpile, maintains large quantities of 
essential medical items that can be provided for the emergency 
health security of the U.S. in the event of a bioterrorist 
attack or other public health emergency.
    FEMA has also successfully merged a multiplicity of other 
disaster response teams and assets from different departments 
and agencies to create a unified national response capability 
within the department.
    FEMA has also been given operational control of the nuclear 
incident response teams in certain circumstances, including the 
event of an actual or even a threatened terrorist attack.
    As we settle in to DHS, we continue to leverage the 
extensive experience and capabilities of the department's other 
components. We look forward to continuing and increasing such 
cooperation in the future.
    This year, FEMA is supporting the department's efforts to 
put into place a National Incident Management System that will 
help improve coordination of disaster response at all levels. 
We will field enhanced response teams and resources, improve 
our response times, put plans into place for catastrophic 
events and improve our training program.
    We want to elevate our operational response capabilities to 
a whole new level of proficiency, one that will further the 
principles of the National Response Plan and the National 
Incident Management System to better serve the American public.
    We will enhance our current recovery capabilities and 
better position ourselves to recover from a catastrophic event 
by focusing on redesigning our public assistance program and 
developing a catastrophic incident housing recovery strategy.
    Finally, we are ensuring that the FEMA national security 
program have adequately staffed, trained, equipped and exercise 
our continuity of operations and our continuity of government 
programs to guarantee the survival of enduring constitutional 
government.
    Looking ahead to fiscal year 2005, the president's budget 
request is critical to ensuring that FEMA can continue to 
fulfill our mission.
    The president's request continues implementation of Project 
BioShield, which encourages the development and the purchase of 
necessary medical countermeasures against weapons of mass 
destruction. During advance appropriation, $2.5 billion is made 
available, beginning in fiscal year 2005. These funds will be 
obligated through fiscal year 2008.
    The president's request also includes $20 million in new 
budget authority for planning and exercises associated with 
increasing our medical surge capabilities. It includes $8 
million in new budget authority for four incident management 
teams to act as the core field-level response teams for major 
disasters, emergencies and acts of terrorism.
    The budget includes $7 million in new budget authority for 
the development and implementation of the National Incident 
Management System.
    In the coming year, FEMA will continue to work with other 
components of the department to develop the National Incident 
Management System and complete the National Response Plan.
    These initiatives will ensure that all levels of 
government, across the nation, work together efficiently and 
effectively, employing a single national approach to domestic 
incident management.
    In fiscal year 2005, FEMA's Office of National Security 
Coordination will continue to carry out its mandated mission to 
provide executive agent leadership to ensure continuity of 
national operations in order to guarantee the survival of an 
enduring constitutional government.
    In sum, during the last year, FEMA has continued to carry 
out its traditional mission. Successful implementation of these 
new initiatives and the ongoing activities I discussed today 
will improve our national system of mitigating against, 
preparing for, responding to, recovering from disasters and 
emergencies caused by any kind of hazard.
    In closing, I want to give a personal note of appreciation 
to all members of this committee for the incredible support 
that you have shown FEMA in the past. That does not go 
unnoticed by either myself, my leadership team or the employees 
of the agency, and we truly do appreciate it.
    Mr. Chairman, with that, I will be happy to answer any 
questions.
    [The statement of Mr. Brown follows:]

Prepared Statement of The Honorable Michael D. Brown, Under Secretary, 
  Emergency Preparedness and Response, Department of Homeland Security

Introduction
    Good Morning Mr. Chairman and Members of the Subcommittee. I am 
Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate (EP & R) of the Department of Homeland Security 
(DHS), which includes the Federal Emergency Management Agency (FEMA).
    I am honored to appear before you today to talk about FEMA's 
accomplishments of this past year since it has become part of the 
Department of Homeland Security. More importantly I want to highlight 
our priorities for fiscal year 2004 and why support of the President's 
Budget request for fiscal year 2005 is critical to insure that FEMA can 
continue to fulfill its traditional role of preparing for, mitigating 
against, responding to, and recovering from disasters and emergencies 
caused by all hazards.
    FEMA has undergone significant changes since becoming part of DHS--
both external and internal--but it has not changed its focus. As part 
of DHS, FEMA continues its tradition of responding to help disaster 
victims and those in need whenever disasters or emergencies strike.

Transition into the Department of Homeland Security
    On March 1st, FEMA celebrated its first full year as part of the 
Department of Homeland Security. We are proud to be part of this 
historic effort and are more committed than ever to our duty as 
defenders of the Homeland. We made significant strides in our first 
year as a component of the Department, and we continue to see the 
advantage of and realize benefits from being part of a larger 
organization. We believe that the Federal-wide consolidation of all-
hazards preparedness, mitigation, response, and recovery programs 
brings real benefit to the American public.
    Since March 1st of last year, FEMA has worked to merge disaster-
related public health programs from the Department of Health and Human 
Services (DHHS) into a comprehensive and unified national response 
capability. These programs include the National Disaster Medical System 
(NDMS), which is designed to provide a single, integrated, national 
medical response capability to augment the Nation's emergency medical 
response capability when needed for major disasters and Federally 
declared emergencies. Another important public health-related program, 
the Strategic National Stockpile (SNS), maintains large quantities of 
essential medical items that can be provided for the emergency health 
security of the U.S. in the event of a bioterrorist attack or other 
public health emergency and to support State and local communities 
during emergencies.
    FEMA also successfully merged a multiplicity of other disaster 
response teams and assets from different departments and agencies to 
create a unified national response capability within the Department of 
Homeland Security. Among these teams and assets, now merged within 
FEMA's Response Division, are the:
        - National Disaster Medical System,
        - Domestic Emergency Support Team, and
        - Strategic National Stockpile
    FEMA has also been given operational control of the Nuclear 
Incident Response Team in certain circumstances, including the event of 
an actual or threatened terrorist attack.
    As we settle into DHS, we continue to leverage the extensive 
experience and capabilities of the Department's other components. For 
example, in responding to Hurricane Isabel, we received aerial imaging 
and aviation support from our friends at the DHS Bureau of Immigration 
and Customs Enforcement (ICE) and the U.S. Coast Guard. We are 
partnering with the Information Analysis and Infrastructure Protection 
Directorate to improve our damage prediction and resource placement 
decisions and to take advantage of their critical infrastructure 
resources and expertise. We look forward to continuing and increasing 
such cooperation in the future.

Fiscal Year 2003 Accomplishments
    In Fiscal Year 2003, the Federal Emergency Management Agency (FEMA) 
obligated nearly $2.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, including floods, ice and winter 
storms, wildfires, tornadoes, hurricanes, typhoons, and tropical 
storms. In addition, FEMA obligated $6.8 billion to fund projects 
associated with the September 11 response. Overall, FEMA responded to 
62 major disasters and 19 emergencies in 35 States, 4 U.S. Territories 
and the District of Columbia. These events included the record Midwest 
tornados, Super Typhoon Pongsona and Hurricanes Claudette and Isabel. 
The 19 emergencies declared in 2003 included the loss of the Space 
Shuttle Columbia, the President's Day snowstorm, and the Northeast 
power outages.
    While the California fires in October left an indelible mark in our 
memories, the Nation's fire season in 2003 was not as busy, with 
exceptions, in Montana and Arizona. But in the areas impacted, the 
fires were devastating and severe. In Fiscal Year 2003, FEMA approved 
assistance for 34 fires in 11 States, compared with 83 fires in 19 
States in Fiscal Year 2002.
    In fiscal year 2003, Congress supported the President's efforts to 
promote disaster mitigation, through the creation and funding of two 
important initiatives: the Pre-Disaster Mitigation Grant Program and 
the Flood Map Modernization Program. Great strides have been made in 
both of these areas in the last year. These two programs will 
ultimately result in the reduced loss of life and property throughout 
our Nation.
    FEMA's Preparedness Division awarded more than $160 million in 
Emergency Management Performance Grants to the States to maintain and 
improve the national emergency management system. To date, the United 
States Fire Administration has awarded over $650 million in grants to 
fire departments across the nation as part of the Assistance to 
Firefighters Grant Program. Both of these programs are now requested in 
the Office for Domestic Preparedness (ODP) portion of the Department's 
budget for fiscal year 2005 and we are working very closely with ODP on 
transferring these programs. FEMA also provided a total of 17 
interoperable communications equipment grants for $79.57 million, and 
the Emergency Management Institute, the National Fire Academy (NFA) and 
the Noble Training Center together trained more than 290,000 fire and 
emergency management and response personnel nationwide.
    In our response to Hurricane Isabel, last September, we 
demonstrated a more forward-leaning and proactive response posture and 
made every effort to improve communication, coordination and timely 
delivery of critical disaster supplies. FEMA increased the frequency of 
daily video teleconferences with the impacted States and meteorological 
and river forecasting centers, jointly planned response actions with 
the States, pre-positioned materials, and opened multiple staging areas 
and mobilization centers in anticipation of response needs. These and 
other changes we have made allow us to continue to improve Federal 
disaster response efforts. We will continue to take advantage of the 
lessons learned and best practices from Isabel and other disasters, and 
apply them in our programs to change the impact of future events.
    Also during fiscal year 2003, FEMA launched the Continuity of 
Operations Readiness Reporting System, a single automated system that 
allows Federal Executive Branch departments and agencies to report the 
state of their Continuity of Operations capabilities and readiness. The 
System has been tested and will be fielded this year. In addition to 
technology upgrades and improvements, FEMA's Office of National 
Security Coordination maintained a 24/7 operational readiness 
capability in support of National Security programs, including the 
initial planning and coordination for an interagency Continuity of 
Operations exercise, Exercise Forward Challenge 2004, to take place 
later this year.
Fiscal Year 2004 Priorities
    In Fiscal Year 2004, FEMA is focusing on its five major program 
areas: Mitigation, Preparedness, Response, Recovery, and National 
Security.
    Our Mitigation efforts center on modernizing our Nation's flood 
maps, providing Pre-Disaster Mitigation (PDM) grants, and enhancing the 
National Flood Insurance Program (NFIP). For Map Modernization over 300 
mapping projects, valued at approximately $85 million, were launched 
nationwide in fiscal year 2003 and we are working with State and local 
representatives to identify projects for fiscal year 2004. The PDM 
grants will again provide stable funding to assist State and local 
governments to reduce risks. The number of NFIP policies will be 
increased by five percent.
    Our Preparedness Division will support the Department's efforts to 
put into place a National Incident Management System (NIMS) that will 
help improve coordination of disaster response at all levels. In 
addition, we will publish Mutual Aid System Development, Credentialing 
and Equipment Interoperability Standards. Our support for training and 
exercises continues to enhance the Nation's emergency management 
capabilities and increasing fire preparedness remains a central 
mission.
    In 2004, our Response capabilities continue to grow. We will field 
enhanced response teams and resources, improve our response times, put 
plans into place for catastrophic events, and improve our training. We 
will continue to consolidate and integrate all of our different 
disaster response programs, teams, and assets; design new approaches; 
and implement new efficiencies that will result in a more unified, 
integrated, and comprehensive approach to all-hazards disaster 
response. We want to elevate our operational response capabilities to a 
whole new level of proficiency, one that will further the principles of 
the National Response Plan (NRP) and the National Incident Management 
System (NIMS) to better serve the American people.
    For those impacted by disasters, FEMA continues to provide 
appropriate and effective disaster recovery assistance. Simultaneously, 
we continue to focus on re-designing our Public Assistance Program and 
developing a catastrophic incident housing recovery strategy. These 
efforts will enhance our current capabilities and better position us to 
recover from a catastrophic event.
    Finally, we are ensuring that the FEMA National Security Program 
has adequately staffed, trained, equipped, and exercised Continuity of 
Operations (COOP) and Continuity of Government (COG) programs to 
guarantee the survival of Enduring Constitutional Government.

Fiscal Year 2005 Budget Highlights
The President's Fiscal Year 2005 Budget for FEMA:
        - Assumes a $2.9 billion spending level for disaster relief--a 
        level consistent with the average non-terrorist disaster costs 
        over the past five years. This includes more than $2.1 billion 
        in new disaster funds, as well as funds expected to remain 
        available from prior years. This is over $300 million more than 
        the fiscal year 2004 appropriation.
        - Continues implementation of Project BioShield, which 
        encourages the development and purchase of necessary medical 
        countermeasures against weapons of mass destruction. Through an 
        advance appropriation, $2.5 billion is made available beginning 
        in fiscal year 2005. These funds will be obligated through 
        fiscal year 2008.
        - Includes $20 million in new budget authority for planning and 
        exercises associated with improving medical surge capabilities.
        - Includes $8 million in new budget authority for four Incident 
        Management Teams (IMTs) to act as the core, field-level 
        response teams for major disasters, emergencies, and acts of 
        terrorism.
        - Includes $7 million in new budget authority for development 
        and implementation of the National Incident Management System 
        (NIMS), specially designed to provide a basic framework of 
        organization, terminology, resource identification and typing; 
        training and credentialing; and communications protocols to 
        deal effectively with incidents of all sizes and complexities 
        involving Federal, State, and local governments, Tribal 
        Nations, and citizens.
        - Continues the President's Pre-Disaster Mitigation program, 
        which helps to minimize the devastation caused by natural 
        disasters through a competitive grant process that supports 
        well-designed mitigation projects. In fiscal year 2005, we will 
        initiate post-disaster evaluations to begin documenting losses 
        avoided and assessing program impact.
        - Continues the replacement and modernization of the Nation's 
        Flood Insurance Rate Maps.
        - Transfers the Strategic National Stockpile to DHHS. As a 
        result of the transfer, $400 million is moved to DHHS to 
        maintain the stockpile and strengthen its future capacity with 
        new and needed medical products as soon as they become 
        available.
        - Transfers the Emergency Food and Shelter Program to the 
        Department of Housing and Urban Development.

Mitigation
    FEMA's mitigation programs are an essential part of the Department 
of Homeland Security's charge to protect the lives and property of 
Americans from the effects of disasters. Mitigation programs provide us 
the opportunity not only to develop plans to reduce risks, but more 
importantly, to implement those plans before disaster strikes.
    In previous years, Congress supported the President's efforts to 
promote disaster mitigation by creating and funding two initiatives:
        - Pre-Disaster Mitigation Grants, and
        - Flood Map Modernization.
    The intent of the Pre-Disaster Mitigation Grants is to provide a 
consistent source of funding to State, local, and Tribal governments 
for pre-disaster mitigation planning and projects that primarily 
address natural hazards. The plans and projects funded by this program 
reduce overall risks to the populations and structures, while reducing 
reliance on funds from Federal disaster declarations. The competitive 
nature of the Pre-Disaster Mitigation Program encourages communities to 
assess their risks, to evaluate their vulnerabilities, and to implement 
mitigation activities before a disaster strikes. This budget proposes 
support for both pre-disaster and post-disaster mitigation assistance.
    The Flood Map Modernization Program provides the capability to 
broaden the scope of risk management. This enables more expansive use 
of the geospatial base data needed to develop the flood maps. 
Communities, lenders, insurance agents, and others use the maps and the 
flood data approximately 20 million times a year to make critical 
decisions on land development, community redevelopment, insurance 
coverage, and insurance premiums. As flood hazard data is updated, the 
current flood map inventory is being changed from a paper map system to 
a digital one. New technology will enhance the usefulness and 
availability of flood data to all customers. The new system also 
supports the development and distribution of geospatial data of all 
hazards, both natural and man-made.
    The fiscal year 2005 budget will continue to update flood maps 
nationwide and increase State and local capability to manage flood 
hazard data. By the end of fiscal year 2005, digital GIS flood hazard 
data covering 50 percent of our nation's population will be available 
online.
    The National Flood Insurance Program (NFIP) has a significant 
impact on reducing and indemnifying this Nation's flood losses. Prior 
to the creation of the NFIP, floodplain management as a practice was 
not well established, and only a few states and several hundred 
communities actually regulated floodplain development. Flood insurance 
was not generally available. We are working diligently to refine and 
expand our all-hazards risk communication strategy to meet the goal of 
a 5 percent increase in NFIP policy ownership. This increase in 
insurance policy ownership will reduce reliance on the Disaster Relief 
Fund and will foster individual economic stability.

Preparedness
    FEMA's Preparedness Division helps ensure our Nation is prepared to 
respond to emergencies and disasters of all kinds. The Preparedness 
Division is responsible for Federal, State, local, and community 
emergency preparedness programs; assessments and exercises; grants 
administration; the Radiological Emergency Preparedness Program and the 
Chemical Stockpile Emergency Preparedness Program.
    The U.S. Fire Administration works to prevent fire deaths and 
damage to property, and carries out its mission through leadership, 
advocacy, coordination, and support. The training programs offered at 
the National Fire Academy and the Emergency Management Institute 
promote the professional development of command level firefighters, 
emergency managers, and emergency responders, and are an important 
aspect of the U.S. Fire Administration's duties.
    The Noble Training Center, located at Ft. McClellan, Alabama, is a 
new addition to FEMA. Transferred from DHHS in fiscal year 2003, the 
Noble Training Center is the only hospital facility in the U.S. devoted 
entirely to medical training for Weapons of Mass Destruction (WMD). In 
Fiscal Year 2005, Noble will continue to train medical personnel for 
State and local hospitals, emergency medical services, and the National 
Disaster Medical System.
    In Fiscal Year 2005, FEMA's Preparedness Division will work with 
other components of the Department to develop the National Incident 
Management System (NIMS) and the National Response Plan (NRP). These 
initiatives will ensure that all levels of government, across the 
Nation, work together efficiently and effectively, employing a single 
national approach to domestic incident management.
    FEMA's Preparedness Division will continue to provide the States 
with technical assistance in their all-hazards planning. To avoid 
duplicative planning, our efforts will be closely coordinated with 
those of the Office for Domestic Preparedness to update State terrorism 
preparedness plans.
    As part of our effort to prepare our citizens for all disasters, 
the Division will oversee the Community Emergency Response Teams, or 
CERT. This program, begun as a civilian training program by the Los 
Angeles Fire Department, has become a nationwide effort to train 
citizens in first aid and basic firefighting and emergency response 
techniques. CERT--trained citizens are able to provide those basic 
emergency services that would otherwise occupy the first responders. 
FEMA provides train-the-trainer programs to allow as many citizens as 
possible to receive this training across the country. The CERT program 
has grown from 170 teams in 28 States and Territories in March of 2002 
to over 900 teams in 51 States and Territories.

Response
    FEMA's Response Division is responsible for integrating national 
emergency response teams, systems and assets into a comprehensive and 
fully coordinated, national capability that supports States and 
communities in responding to all types of disasters, including acts of 
terrorism. This is accomplished by arranging the necessary and 
appropriate national assets, establishing a consolidated national 
incident response system, and effectively coordinating strategic 
resources in full partnership with Federal, State, local, and tribal 
governments, the private sector, volunteers, and citizen partners.

The Fiscal Year 2005 Response Division budget proposes to
        - Create four Incident Management Teams (IMTs) and formulate 
        plans for full implementation in Fiscal Year 2006; the IMT is a 
        highly responsive and flexible response team that will be able 
        to quickly establish a strong Federal leadership capability in 
        any disaster environment or high threat situation, including 
        acts of terrorism involving the use of WMD;
        - Continue all-hazards catastrophic disaster response planning 
        for one additional US city, based on the pilot disaster 
        planning template developed for New Orleans, Louisiana. The 
        template will be used in the future as a basis for all-hazards 
        catastrophic planning for other high risk areas of the country; 
        and
        - Continue efforts to develop the capability to provide 
        intermediate emergency housing aimed at meeting the needs of 
        large numbers of disaster victims displaced from their homes as 
        a result of large scale and catastrophic disasters
    FEMA's Response Division will also continue to implement measures 
to reduce response times for its teams and delivery of disaster 
supplies.
    Additional funding requested in fiscal year 2005 implements the 
National Incident Management System--NIMS. FEMA's goal for 2005 is to 
focus on the readiness of Federal response teams and the integration of 
Federal capabilities with that of State and local jurisdictions. We 
will conduct outreach to our Federal response partners and State and 
local counterparts to ensure connectivity and synchronization of 
response capabilities under NIMS, and will conduct NIMS and Incident 
Command System (ICS) training for Federal response teams. These 
activities will ensure we have the baseline skills for all teams to 
operate under NIMS and be fully integrated into the NIMS/ICS doctrine.
    As highlighted previously, the President's fiscal year 2005 budget 
proposes an initiative to develop FEMA's medical surge capability. 
Under this initiative, FEMA will evaluate supplemental capabilities for 
both a fixed and mobile facility to demonstrate the utility of using 
alternate facilities to support medical surge activities, as well as 
the utility of having a surge capacity that can be mobilized, 
transported, and made operational within set timelines. The second part 
of this initiative is to implement the concept through two pilot 
projects.

Recovery
    FEMA's Recovery Division leads and coordinates the timely delivery 
of Federal disaster assistance to individuals and communities.
    In Fiscal Year 2005, the Recovery Division will continue to provide 
assistance to individuals for temporary housing, damaged personal 
property, crisis counseling, disaster unemployment, and disaster legal 
services. FEMA responded to over 2.5 million calls last year, from 
people seeking to register for disaster assistance and to have their 
questions answered. The Recovery Division processed more than half a 
million individual disaster applications.
    The Individual Assistance Programs that meet victims' most basic 
needs provide assistance for housing, personal property losses, and 
medical and funeral expenses. In each disaster we ask our customers, 
the disaster victims, what they think of the service we provided to 
them. I am pleased to tell you that we consistently earn very high 
marks from our customers when they are surveyed. In fiscal year 2005 we 
will continue to invest in technology that ensures we continue to meet 
our customers' expectations.
    FEMA's Public Assistance Program, which accounts for the bulk of 
recovery expenditures out of the Disaster Relief Fund, is the primary 
means for community recovery. State and local governments and certain 
non-profit organizations can be reimbursed to repair facilities to 
their pre-disaster condition, as well as for costs associated with 
debris removal and emergency protective measures. FEMA is focusing on 
redesigning the Public Assistance Program to be more efficient and 
better prepared to meet the needs of a catastrophic or terrorist event 
by moving toward a web-based, user friendly, estimated based program, 
communities will be able to recover faster. In order to better prepare 
for the transition to a redesigned program, FEMA is establishing a 
methodology for estimating the total cost of large projects versus 
determining final costs after work is complete. Implementing the Public 
Assistance Program using cost estimates will allow State and local 
governments to better budget for recovery, improve our estimates of 
disaster expenditures, and reduce administrative costs and closeout 
timelines. In addition, we are working on proposed revisions to the 
Public Assistance Insurance Rule, which was last revised in 1991. The 
Stafford Act requires applicants for Public Assistance grants to 
``obtain and maintain'' insurance on a damaged facility as a condition 
of receiving assistance. In the past, there have been concerns about 
this rule imposing a pre-disaster insurance requirement for all 
hazards. The proposed rule will not require insurance before disaster 
strikes, except for flood insurance in identified flood hazard areas, 
as required by the Stafford Act. The purpose of the rule is to simply 
clarify issues not adequately addressed in the current rule, such as 
eligible deductibles.
    The Fire Management Assistance Grant Program is another key 
resource for States and local governments to mitigate, manage, and 
control forest or grassland fires to prevent damages that may otherwise 
result in a major disaster declaration.
    I assure you that President Bush appreciates the importance of 
Recovery. I had the honor of joining the President in touring Missouri 
last spring after the devastating tornadoes struck Pierce City. Even 
though it was pouring rain during our visit, the President got out of 
his car to go over and talk to a couple who were standing in front of 
their damaged store front. They also had damages to their home. Using 
FEMA's temporary housing, immediate needs assistance, their insurance, 
and SBA home and business loans, this couple is recovering.
    The massive California Wildfires of 2003 scorched over 750,000 
acres and claimed 24 lives. During the response to the wildfires, the 
President and Secretary Ridge wanted me to be intimately involved in 
the coordination efforts between the Federal agencies doing work there. 
Through the formation of a pair of interagency bodies, the Washington-
based California Fires Coordination Group and the field-level Multi-
Agency Support Group, FEMA's Recovery Division was instrumental in 
assuring that each of our Federal partners was coming to the table with 
comprehensive plans that were complementary to each other, that 
minimized the sort of bureaucratic ``stove piping'' that results in 
duplication of efforts, and that continued to focus on the needs 
identified by the state and local communities as priorities. Our shared 
success is the natural result of FEMA's commitment to ``all-hazards'' 
emergency management, and a focus on a scaled approach to meet the 
challenges of any kind of incident, from the floods, fires, and storms 
that happen all too often, to the catastrophic scenarios that we 
prepare for, but hope will never come to pass.
    We take our mission to help communities and citizens recover very 
seriously. My goal is to continue to do the work we do now better and 
faster, and to build on our current recovery capabilities to be better 
prepared to face a catastrophic natural or terrorist event.

National Security
    In Fiscal Year 2005, FEMA's Office of National Security 
Coordination will continue to carry out its mandated mission to provide 
Executive Agent leadership to ensure continuity of national operations 
in response to all-hazard emergencies in order to guarantee the 
survival of an enduring constitutional government. Funding in fiscal 
year 2005 will be used to ensure that all Federal Executive Branch 
departments and agencies attain and maintain a fully operational 
Continuity of Operations (COOP) capability. FEMA will provide 
assistance to Federal departments and agencies to help them attain and 
maintain fully operational contingency capabilities. FEMA will develop 
and implement a test, training, and exercise program that culminates in 
a complete exercise of the Continuity of Government (COG) program. In 
addition, we will provide technical support and guidance to our 
interagency, regional, State and local stakeholders across the Nation.

Conclusion
    During the last year, FEMA has been busy but we continue to carry 
out our mission to prepare for, mitigate against, respond to, and 
recover from disasters and emergencies caused by all-hazards. The key 
to our continued improvement will be to take the lessons learned from 
previous disasters and incorporate them into our preparedness, 
planning, and procedures, so that we do an even better job of 
responding next time. We evaluate the lessons learned from each 
disaster and make plans to incorporate the new approaches and remedy 
problems. Hurricane Isabel provided such an opportunity, and it 
validated our priority to reduce disaster response times and improve 
our capability to gather information and effectively and efficiently 
manage the Federal Government's response to Presidentially - declared 
disasters.
    Successful implementation of the new initiatives and the on-going 
activities I have discussed today will improve our national system of 
mitigating against, preparing for, responding to, recovering from 
disasters and emergencies caused by all hazards.
    In closing, I want to thank the Members of the Subcommittee for 
their past support of FEMA and I appreciate the opportunity to testify 
before you today. I would now be pleased to answer any questions you 
may have.

    Mr. Shadegg. And a fine statement it was.
    Let me begin by letting you add to it.
    We heard some discussion here already today about dramatic 
cuts. I think that it is important to put the funding levels in 
context. It seems to me that across the board, within the 
Department of Homeland Security, since its creation and since 
9/11, we have done radical plus-ups in funding.
    In instance after instance, we have said, ``Wait a minute, 
we were doing nothing about this,'' or ``We were doing way too 
little about this in the past,'' so we were going to pump it up 
exponentially in a very short period of time.
    I doubt if anyone would maintain, or certainly I do not 
think it is reasonable to maintain that kind of dramatic 
increase can persist over time.
    My understanding, for example, is that with regard to 
emergency management grants, they were prior to the creation of 
the department roughly $130 million. They have been plussed-up 
to somewhere in the neighborhood of $179 million, a pretty 
dramatic increase--30 percent.
    With regard to fire assistance grants, it is my 
understanding that they went from $100 million prior to the 
creation of the department to a request by the president of 
$500 million last year, which is repeating this year. So he is 
proposing still a rather significant plus-up.
    And it is my understanding that it is accurate to say that 
this administration has done more than any administration in 
American history to assist local fire departments in their 
efforts to prepare and to do their jobs.
    I guess I would like to begin by giving you an opportunity 
to comment on what is reasonable in terms of the immediate 
plus-up of funding and then where we go over the long haul.
    Mr. Brown. Well, Mr. Chairman, first of all, your statement 
just now and question are exactly the points that I would make 
in terms of funding.
    I would say, first of all, the president has absolutely 
recognized the problem we had last year with the DRF, the 
Disaster Relief Fund. The request now is such that it will give 
us plenty of room to do what we have historically done, about 
$2.9 billion over the average year, which is what we did last 
year.
    So we feel very good that the president's request is at a 
level that will keep us from having to come back, barring any 
catastrophic event in the future, on bended knees and ask for 
money for the Disaster Relief Fund.
    The points about first responders I think we cannot ignore.
    You said it very eloquently, Mr. Chairman: This president 
has requested more and gotten more for first responders than 
any president in the history of this country.
    When I came into FEMA, the requests for the firefighter 
grants was at about $100 million.
    That was increased to $500 million--the exact same amount 
the president is requesting this year. So the president has not 
requested a cut in that amount that he requested at all.
    The same is true with the EMPG program.
    There was a dramatic increase in that request by the 
president last year. He has made the same request this year.
    And so the cuts that you see or the difference between what 
the president has requested and at the end of the day what 
Congress actually ends up giving us, which is more.
    So I think we are in very good shape.
    On the firefighter grant program, the reason I think that 
is a reasonable request and a reasonable level to put out is 
that there is so much that the local fire departments at any 
one time can consume and take on.
    The way this program is set up, it enables us to--I mean, 
forgive me here if I get on my soap box about the FIRE grant 
program, because I think it is truly one of the best grant 
programs in the federal government.
    It has a peer review process. Those categories allow fire 
departments to come in, they review among themselves where the 
greatest need is and that is where those dollars go and they go 
directly to those fire departments.
    And those fire departments know in advance what they have 
asked for. So when they have to meet that match, they have 
already gone to their city council, to their county 
commissioners, to their state legislature and said, ``We are 
going after this money and we need to be able to, if we get 
approved to move on that stuff, make those purchases and get 
that training, the equipment, whatever it is, into our local 
department.''
    That request has not changed. And that request is still at 
such a historical level that I am certainly supportive of that.
    Mr. Shadegg. I would be happy to let you go on, except my 
time is limited.
    As you know from our private conversations, and as I 
expressed in my opening statement, I am concerned about 
preparedness. I understand the importance of response and I 
understand that many of my colleagues are concerned about 
response to natural disasters in their districts.
    I am not proposing that you lose your focus on response, 
but I think there is a legitimate question presented by whether 
or not it should be preparedness and response combined in a 
single function, whether or not you think it should be or 
should we separate preparedness from response and, if so, 
should Congress be considering doing that? And if not, do you 
think you are getting the support to adequately focus on 
response?
    And, for example, are you getting or should you be getting 
a list of, for example, the equipment that is purchased, so you 
understand the degree to which we are prepared for a terrorist 
attack?
    Mr. Brown. Well, first of all, it is an old axiom in the 
military, and I think it is true whether you are a football 
coach or whether you are the director of FEMA or whatever, that 
you fight as you train and you train as you fight, and we must 
continue to do that.
    We must figure out a way that, within the Department of 
Homeland Security--and I think we are doing a pretty good job 
of it now--of tying those two things together, knowing what is 
occurring on the preparedness side and knowing what is 
occurring on the response side.
    And the details of that, Mr. Chairman, we get that 
information now. We know what fire departments purchase. We 
know because of our great relationship with state and local 
governments, particularly with the emergency management 
community, law enforcement--I think that has changed 
dramatically over the past several years--we know what their 
capacity is. We know what their abilities are.
    We do assessments. We started doing in-depth critical 
assessments immediately following the September 11th attacks of 
what are the vulnerabilities at the state, what capacity they 
have. That is why we use our regional offices at all levels to 
find out what is going on in those states.
    What can they do? What can't they do? So that when we have 
to respond, whether it is a wildfire in California or a flood 
in Mississippi, whatever it is, we know what that capacity is 
out there.
    Mr. Shadegg. My time is expired, but I have a series of 
questions on crisis counseling grants, disaster medical 
assistance teams and emergency communication systems which I 
will submit to you in writing.
    Mr. Brown. Great.
    Mr. Shadegg. Now at this point, I would call on the ranking 
member, Mr. Thompson, for his questioning.
    Mr. Thompson. Thank you, Mr. Chairman. And I guess your 
comment is where I can start from in my questions.
    In June of last year, this committee sent some questions to 
you, Mr. Brown, and we never got an answer on those questions. 
If the chairman's comments of those questions go forward, can 
you assure us that this time we will get the answers, say, 
within two weeks?
    Mr. Brown. Well, let me tell you, first of all, 
Congressman, that if you submitted questions and we did not 
respond to those then, one, I am appalled and I apologize, and 
heads will roll for that, because that is unacceptable to me. I 
will find out--.
    Mr. Thompson. --you a copy of the letter that the committee 
sent.
    Mr. Brown. Absolutely. That is unacceptable to me.
    Mr. Thompson. Thank you. And I appreciate your support in 
getting the information to the committee.
    One of the concerns I have is the FIRE program. You talked 
a little bit about it. Our authorization was up to $900 
million, and we came from $100 million up to $500 million, and 
Congress bumped it up to $750 million.
    Now we are back to $500 million.
    I do not want to get in a numbers game, but it appears that 
Congress is placing a higher value on that program by giving 
you more money every year, and we get requests asking for less.
    Are we doing the wrong thing by giving you more money for 
the FIRE program?
    I hope you understand where I am going.
    Mr. Brown. I understand exactly where you are going, 
Congressman. And I think that we have shown our ability that 
whatever the funding levels are, we can get that money out the 
door and get it to those fire departments that need it.
    We ramped up after 2001, where we went from $100 million to 
$500 million. We ramped up and got that out within that 
calendar year. We had that money obligated, out the door, in 
the hands of those fire departments.
    So at whatever level it is funded, we assure you that we 
will get the money out the door. Whether that program is in 
FEMA or whether it is in ODP, we will do whatever to assist ODP 
to make sure that money gets out.
    Mr. Thompson. For those individuals who live in 
metropolitan areas, can you explain the administration's or the 
department's rationale for doing away with the Metropolitan 
Medical Response System?
    Mr. Brown. We are not actually doing away with it, 
Congressman. For the past several years, we have used the money 
that Congress has appropriated to use to get that program up to 
its baseline. And our object was to get it to the baseline, get 
certain capabilities there, and then let the localities take 
that over and continue that program.
    We reached that baseline last year, and so there was no 
request for additional funding.
    Mr. Thompson. So your testimony is that all the 
metropolitan communities in this country have met that 
baseline?
    Mr. Brown. That is correct, 125 through fiscal year 2003. 
The goal was 125, and we reached that goal of 125 communities.
    Mr. Thompson. Very good.
    I have no more questions, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman, and would call upon Ms. 
Granger for her questioning.
    Ms. Granger. Yes, thank you very much.
    Let me go back just a minute to something that was 
mentioned before.
    In the last 10 years, my district has experienced 
tornadoes, floods, chemical releases, computer viruses that 
shut down everything.
    The city of Fort Worth operates an emergency management 
program that is multi-jurisdictional, so it includes Tarrant 
County, which is one of the most populous counties in the 
nation, and 12 smaller cities.
    The part of it that is so important is the ability to plan 
and respond to all types of disasters. The concern I have is 
the capping of that EMPG personnel fund at 25 percent.
    And what I am saying, primarily as a former mayor, is this 
is local planning. So to give the local communities the 
flexibility to know how to spend their money, we can have all 
the equipment we need, if we do not have the people to plan and 
operate that equipment.
    So where is that 25 percent cap coming from? And then 
listen to my concerns of letting the local communities decide 
where they need personnel, equipment, whatever.
    Mr. Brown. Congressman Granger, first of all, let me talk 
about Tarrant County and the way they have integrated all their 
jurisdictions. I mean, they are doing an incredibly good job of 
that, and I really appreciate their efforts to not just be 
narrow-mindedly focused on just the county or whatever. They 
are doing it on a good regional basis.
    Second of all, I want to emphasize to the entire committee 
how incredibly important state and local planning capabilities 
are for the success of FEMA when we have to respond to a 
disaster of any kind.
    We must have a robust state and local emergency management 
capacity and we must understand what the capacity is when we go 
in to respond so that we are able to complement what it is that 
they are able to do. And what they are not able to do, we can 
go in and backfill in that regard.
    So we think it is a very important component in how we 
operate under this national response plan in the federal 
system.
    It is the position of the administration that the cap needs 
to be placed on so that more of the personnel costs are shifted 
to the state and locals so that we can therefore increase the 
amount of money that goes to state and locals for exercises and 
training as opposed to actual personnel costs.
    Ms. Granger. Okay. I am not sure that I agree with it, but 
I understand the reason and thank you very much.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Shadegg. The chair would call on the gentleman from 
Maryland, Mr. Cardin, and would advise him that he has eight 
minutes because he did not make an opening statement.
    Mr. Cardin. Thank you, Mr. Chairman. I appreciate the 
chair's generosity.
    First, on a personal note, Secretary Brown, I want to thank 
you for the personal attention you paid to the people of 
Maryland during Hurricane Isabel. We very much appreciated your 
personal leadership.
    And as we told you before, we want to express our thanks to 
all the FEMA personnel that came to Maryland. It was excellent. 
You were there before the hurricane struck, you were there when 
it struck and afterwards. And it was extremely helpful to the 
people of Maryland and we very much appreciate and now fully 
understand the capacity that we have at the federal level to 
respond to a disaster, and it is very impressive.
    So only my compliments in that regard.
    I do, though, want to follow up on some of the issues that 
have been brought up, because I do think it raises additional 
issues.
    It is interesting that on ability to respond, we have built 
up capacity in regards to terrorism. And although I may 
disagree with you on the dollar amounts going to local 
responders--because I think we need to do a better job on local 
responders there--clearly, in response to disasters, though, 
there is a different capacity here.
    We rely on our local governments to a large extent to 
respond to the issues surrounding disasters, and yet their 
capacities are nowhere near as strong as they need to be in 
that regard.
    We are somewhat at a disadvantage because we have not 
enacted an authorization bill for homeland security. And I 
think if we had an authorization bill, Mr. Chairman, we would 
be able to talk about these issues in a more coordinated way 
from the congressional point of view.
    But dealing with where we are today and looking at some of 
the issues in response to Congresswoman Granger's comment on 
the cap and trying to get more money into the training issues--
but as I understand it, the total dollar amounts have been 
reduced.
    So it is hard to understand how we are increasing local 
capacity in this program, when we are reducing the size of the 
pie going to local government. I think you may have a stronger 
point if we were increasing the size of the pie.
    I look at a lot of other programs that are in this year's 
budget that deal with the ability for us to deal with 
mitigation. And the chairman mentioned this, mitigation and 
preparedness. It is an area that needs to be prioritized.
    We need to do more to mitigate disasters and to prepare and 
train people for it, rather than just responding to the 
circumstances that are taking place.
    For example, you have combined two of the mitigation 
programs for the national flood program and other areas and 
they have different funding sources. And we are concerned that 
in the budget process this may, in fact, weaken our capacity to 
deal with mitigation and to deal with training and 
preparedness.
    So I am going to give you another chance to try to reassure 
this committee that you have the resources that you need, that 
we need to do, in my view, more to deal with the issues of 
local capacity, for mitigation, particularly in regards to 
natural disaster issues.
    Because I tell you--in Maryland, as you know, you saw the 
homes--the homes that were properly built sustained very little 
damage; those that were not were wiped out.
    Doing things to mitigate these issues are very important.
    Mr. Brown. I think, first and foremost, the president's 
request to do both pre-disaster and post-disaster mitigation is 
a great step forward, because I believe very sincerely in both 
of those issues.
    We were able to, on a competitive basis, go after the state 
and locals and say, ``Give us your best plan, show us on a 
competitive basis what you can do to minimize disasters before 
they occur.'' And we are in the process of awarding those 
grants now.
    By the same token, I also know that, just like we saw in 
Hurricane Isabel, that there are lessons learned after a 
disaster and people are very interested after a disaster, like, 
``Oh, my gosh, I can't let this happen again.''
    So by taking both tacks now, I think we are able to get the 
best of both worlds and help mitigate in that respect.
    I am determined, Congressman, we are not going to lose 
either our mitigation or our preparedness efforts within FEMA 
because, again--I go back to that--some would say it is a trite 
saying, but I firmly believe it, that we fight as we train and 
we train as we fight, and we have to continue to do that.
    Whatever reorganization occurs within DHS, we will continue 
to work with those parts of DHS that now has civil preparedness 
functions to make certain that we are getting from them what we 
need, and that they are indeed doing out in the field what we 
need to get done, so when we have to show up, we are not there 
for the first time and we are there all the time, from 
beginning to end, just like we are today.
    Mr. Cardin. Let me then touch on the one specific issue, 
the Emergency Management Performance Grants Program, that you 
indicate by putting a cap on the personnel cost that we will 
cover at the national level, more dollars will get into the 
actual training.
    But the local governments are going to have to pick up 
those personnel costs. They do not have the capacity to do it 
with these budgets, and you are putting a smaller amount of 
total dollars into the pot. How does this all add up?
    Mr. Brown. Primarily because we do sincerely believe that 
this is a shared responsibility, that the state and local 
governments have a responsibility to absorb some of those 
personnel costs.
    In exchange for absorbing some of those personnel costs, we 
will increase the amount of funding that goes to the state and 
locals for the training and exercises of that.
    And so if they can reprioritize some of their monies to 
keep those personnel intact, then we will go out and train and 
exercise them and make sure they are still capable of doing 
what we need them to do when the responders show up.
    Mr. Cardin. It does seem to be inconsistent with the other 
statement that we made that we want to give local governments 
flexibility. Seems to me that we have become so prescriptive, 
we take away some of the creativity that we are trying to 
create through the federalism concept.
    I would just urge you to reconsider that Congress may very 
well have a view on this also that may be different than the 
administration's. But I would just urge that we look at this 
from a broader point of view than just the narrow purpose that 
we are trying to accomplish in the shared responsibility issue.
    I want to touch upon one other point we have not really 
touched upon much, and that is the engagement of the private 
sector. That offers a lot of hope, promise. There is a lot 
creativity. There is a lot of will in the private sector in 
regards to the issues that come under your area.
    Could you just give us some indication of what you have 
been doing in order to try to energize the private sector more 
and focus more toward the national game plan in responding and 
preparing for natural disasters or for terrorism attacks?
    Mr. Brown. Well, I would say on the very broad scale, 
Congressman, through our private sector office in the 
Department of Homeland Security, we are reaching out to them 
every single day. We have people on the road everywhere trying 
to--we are actively engaging the private sector in all of our 
efforts. We are talking to them about mitigation efforts and 
what they can do. We are expanding the flood insurance program 
to get more and more agencies and companies involved.
    I am going to Houston this week to speak to the Texas 
Hospital Association about what these private hospitals can do 
to more actively engage in mitigation preparedness because of 
our experience in Tropical Storm Allison.
    So I think we are doing a really good outreach to them, and 
they are really beginning to wake up and understand they need 
to be a part of this entire response also.
    Mr. Cardin. Well, I will just make just one general 
observation.
    What you are saying here today is certainly very 
encouraging. I think, though, there is somewhat of a disconnect 
between the budget and some of the objectives that you are 
trying to accomplish. And I understand the position that you 
are in.
    And, Mr. Chairman, I would hope that we will have an 
opportunity to try to assist Secretary Brown in his work by the 
work that we do here on the budget and on the authorization 
bill, because I think we have the same priorities. It is a 
matter of how we get there.
    Thank you very much for your appearance here today.
    Mr. Shadegg. I thank the gentleman.
    Let me explain for the committee's understanding that we 
will call upon members who were here when the gavel fell in 
order of seniority, and they will each get eight minutes. And 
then we will call on those after the gavel fell. And under the 
rules of the committee, they will each get five minutes.
    So the chair would now call on the gentlelady from the 
Virgin Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And welcome, Under Secretary Brown. It is good to have you 
back with us.
    I share all of the concerns that my other colleagues have 
raised, but I would like to also say that, as a person whose 
district has been prone to natural disasters and who has a 
longstanding relationship and a very good relationship with 
FEMA, I am also concerned that the directorate have sufficient 
resources to carry out its principal mission of assisting state 
and local governments in preparing and responding to terrorist 
attacks, major disasters and other emergencies, and also that 
we are not weakening that well-earned legacy of FEMA and its 
programs and the people that work there.
    You mentioned that you were going to speak to the hospital 
association in Texas, so let me start out with a hospital 
question.
    Because I note that $20 million is authorized for improving 
medical surge capabilities, which is something that has been 
raised as a great concern. Once the committee has gotten 
through--at least this committee--BioShield, that was our next 
focus.
    But that seems like a very paltry sum, given that hospitals 
across the country, like mine in the territory, have a lot of 
work to do to just be in a basic state of readiness before they 
can even surge. And I wondered if you agree with that, and has 
an assessment been made of what funding is needed to meet that 
basic level of readiness. And, if so, what is the figure and 
how does that $20 million compare?
    Mr. Brown. We have not done an assessment of what the total 
cost would be to get them to a baseline. What we are trying to 
do is to prudently use the taxpayers' dollars and say, for this 
initial study, to find out what we need to do to increase our 
medical surge capacity.
    We need this $20 million to build the training, the 
exercises, the programmatic efforts, if you will, within the 
federal government, in partnership with state and local 
governments, to figure out where we need to go.
    And once we do this $20 million and we have set up some 
different projects, so we know what that capacity is and how we 
can go about doing it, I am certain we will be back in future 
years asking for money to now take that to the next level.
    This is something that we believe we need to just find out 
what it is going to cost to get us to a base line by doing 
these kinds of projects and build that initial capacity.
    Mrs. Christensen. All right. Because, I mean, that is a lot 
of your first line of response is taking care of anyone that 
might be injured or in need of care. And if they cannot surge, 
we are going to have a problem.
    I have another health-related question.
    An emergency management official had said in an interview 
that--and this is something I agree with and I know all of my 
colleagues have heard me talk about this over and over again--
this is a quote: ``There's a tremendous bias in the Department 
of Homeland Security towards law enforcement or making the 
question just a fire and hazmat issue. People there just do not 
understand the medical communities and public health industry 
points of view.''
    So what can you tell me to convince me that that is not the 
case and can you explain what the--well, what can you do to 
help me understand that we are having--we talked about 
hospitals.
    Now I am talking about the public health infrastructure 
which any assessment--and I have listened to experts talk about 
it. We have had several reports on it. It is not intact. Labs 
and emergency rooms are already overstretched by a significant 
amount.
    Mr. Brown. I am always fascinated by those kinds of 
comments, because there is clearly a mission within the 
department to focus on law enforcement and the prevention of 
terrorism.
    But when you get beyond that mission and you ask those law 
enforcement folks--whether they be the Border Transportation 
folks or anybody else within the department, Coast Guard, 
whomever--they understand how we, being FEMA, operate, how we 
prepare, what our incident and management systems are and they 
have fully integrated into that.
    So while there is a bias because of what their job is, 
there is no bias in terms of what our preparedness capabilities 
are, the way we prepare or how we respond.
    They understand that entirely. And they have not only 
expressed that understanding, but have integrated into that, as 
we have seen over the past year.
    The wildfires in California--we relied heavily upon our 
partners in DHS.
    The tornadoes--any disaster we responded to this past year, 
being within DHS, we have been able to turn to those other 
components and say, ``We need you to do X.'' Sometimes even 
before we have asked them, they have come and said, ``Can we 
help in any way?''
    So I do not think that statement that you read is really 
indicative of a true bias that exists within the department.
    Mrs. Christensen. Okay.
    Just as in hospitals, the amount of funding that is 
available to get our public health system into some level of 
readiness, and given the fact that some of their other core 
programs are being cut, is of concern to me.
    Mr. Brown. Well, next year I will come back to you and show 
you where this $20 million with these two demonstration or 
pilot projects, what we are able to do, and I bet you next year 
I am asking you for more money to extrapolate that across the 
country.
    Mrs. Christensen. Okay. Great.
    And you were talking also about where you fit into the 
response--when we went to Seattle as a committee and spoke with 
first responders and reviewed--I think the report of TOPOFF2 
had just come out--the complaint from the first responders was 
as an exercise took place, folks from DHS came in and tried to 
manage.
    And you have been very clear on how that is supposed to 
happen, and I do not think--as I recall, FEMA was not 
immediately involved in that.
    And I am really unclear still about how in an incident, is 
it the same model that you used for national disasters now that 
you are in homeland security? Or does now some other level of 
homeland security come in and try to run the program in a 
different manner? Where do you fit in? And how does that 
compare to what you used to do?
    Mr. Brown. The proof of that is in the 62 disasters we 
responded to this past year and that our model continued to be 
utilized. We continue to do exactly what we do in the way that 
we have done it.
    In TOPOFF, we necessarily tried to confuse the situation by 
creating all these different variables in so that we as a 
department could exercise and figure out what did not work so 
we could come back and fix it.
    Mrs. Christensen. Okay.
    I noticed that, if I am correct, that the management of the 
stockpiles was moved from the Department of Homeland Security 
to Health and Human Services. Can you tell me a little bit 
about the discussion that led that to happen? What was the 
rationale for that?
    Mr. Brown. Well, the rationale was that the budget and 
operations really should be tied together, so by moving it back 
into HHS you do that. You tie the day-to-day management and 
operations to the day-to-day budget activities.
    At the same time, though, we do not--being FEMA and the 
Department of Homeland Security--do not lose the capacity to 
utilize that and deploy that as we need it. We can still use 
the National Response Plan and the ESS structure we have within 
our response mechanisms to still deploy it and task HHS to send 
it out and utilize it.
    Mrs. Christensen. One last question I think I have time 
for.
    ODP, not being a part of or the same as EP & R, how are we 
assured that there is a seamless operation between the planning 
and the response and the granting given that that just seems 
not the way it should be set up and it seems a way to just 
create confusion, create gaps, have things fall through cracks?
    Mr. Brown. I am going to make sure that works by detailing 
people, personnel, resources to ODP to support them in any 
possible way so that there is that type of--.
    Mrs. Christensen. Don't you think it would be better if 
they were all in one, all together?
    Mr. Brown. That issue is really above my pay grade. I take 
and implement whatever is given to me and make it work.
    Mrs. Christensen. We know that from experience.
    We thank you for the work that you have been doing.
    Mr. Shadegg. I thank the gentlelady for her questions and 
would call upon the gentlelady from New York, Ms. Lowey.
    Mrs. Lowey. I knew that you--.
    Mr. Shadegg. I just thought I would be nice and give Mr. 
Gibbons a little more time to get ready. And you have been here 
diligently.
    Mrs. Lowey. Thank you, Mr. Chairman. And since I have to go 
to another hearing, I really appreciate that.
    And I thank you, Mr. Under Secretary, for being here today.
    If I may go back to the FIRE grants program for a moment, 
because it is an incredible program that has such support in my 
district. And none gets better reviews from state and local 
officials than the FIRE grant programs.
    If the program is so successful--I have a few questions 
about it--what is the justification for moving it to the Office 
of Domestic Preparedness? And what is being done to ensure that 
the program does not lose its effectiveness at ODP?
    Frankly, I am not sure that moving it was the right 
decision, but I certainly respect your experience being in the 
middle of it. And many of us are going to be watching very 
closely.
    Another question, as you well know, Congress created the 
FIRE grant program to meet the basic critical needs of the 
fire-fighting community.
    Study after study has shown that those needs are 
significant.
    The needs of firefighters, both career and volunteer, are 
great and there simply is not enough funding to go around. 
Unfortunately, the fiscal year 2005 budget proposal calls for a 
33 percent cut in the program, $246 million less than last 
year's appropriation.
    And to add insult to injury, this year's budget mandates 
that states give priority to terrorist preparedness, not that I 
do not think that is absolutely critical and that my 
constituents do not think it is critical, but it seems to be 
contrary to the original intent of the program.
    So I wonder where will this policy leave a small-town 
volunteer fire department in my district and many others that 
does not even have enough masks to outfit the entire department 
or enough radios to ensure that firefighters can talk to each 
other?
    How will the focus on terrorism preparedness, which 
ultimately guts the overall funding for this program, help fire 
departments respond to some of the basic gaps in preparedness 
that were outlined in FEMA's report, a needs assessment of the 
U.S. Fire Service?
    And I ask this because I do not think any of us question 
the importance of terrorism preparedness. But as you know, 
there are many other categories for that. This program was so 
well received because it deals directly with the most basic 
needs of our fire departments.
    Mr. Brown. I do not want to sound smart-alecky in my
answer--.
    Mrs. Lowey. Pardon me?
    Mr. Brown. I do not want to sound smart-alecky in the 
answer that I am about to give you, but I sincerely believe 
this: Every single thing that we do to prepare any fire 
department in this country to do its basic job prepares it for 
a terrorist attack also.
    It may not prepare it necessarily for a biological attack 
or a chemical attack, but to the extent we prepare every single 
fire department to do its job, it will help in the war on 
terrorism.
    Why do I say that? I go back to 9/11.
    On 9/11, we had departments responding from Connecticut and 
New Jersey, from everywhere. What we forget is, is that once 
those departments respond to that incident, somebody has to 
backfill them because at that point there is still another fire 
or something going on in New Jersey or something going on in 
Connecticut and they have to respond.
    And not to take this to its absurd conclusion, but once 
they backfill, somebody has to backfill for them.
    On 9/11, the rest of the firefighting community did not sit 
around with nothing to do. They had other things they had to do 
on 9/11, backfilling all over the country as departments would 
respond and do things.
    Urban Search and Rescue teams--as Director Allbaugh 
dispatched almost all of the Urban Search and Rescue teams to 
either the Pentagon or the World Trade Center, those people 
were taken out of local fire departments. They then need to 
backfill so those local fire departments can still do what they 
need to do.
    That is why I sincerely believe and will always believe 
that this all-hazard approach is the only way to effectively 
prepare this country for both terrorist attacks and manmade 
disasters, whether they are incidental or intentional.
    Mrs. Lowey. Well, I think that makes a lot of sense, and 
the proof will be in the actual giving out of the grants and to 
see whether it is meeting the basic needs of our fire 
department.
    If I may follow up on another area, you may remember way 
back in I think it was May 2003, many of us asked you questions 
about equipment interoperability standards.
    Now, I live in New York. We are 30 minutes from the World 
Trade Center. If my fire departments and police were waiting 
for the standards to come from the federal government, 
constituents would be up in arms because it is taking so long.
    There seems to be a number of DHS organizations working on 
these standards. If you could discuss with us the division of 
responsibility for developing standards among EP & R, the 
Science and Technology Directorate, the Office for Domestic 
Preparedness and any other DHS organizations involved in 
developing standards?
    What equipment will you publish the standards for? When 
will the standards be published? Will they be actual standards 
or technical specifications as stated by the secretary last 
week?
    And--I bet you want the answer to that one--who should, 
right now, state and local governments look to for definitive 
guidance on equipment standards?
    Frankly, I find in my district we are so close, we are 
right in the middle of--God forbid any emergency would happen--
we are right there. And most people feel that the department is 
just taking too long.
    And frankly, I think our local police and firefighters and 
all those who have to coordinate with them should be reimbursed 
for what they bought, or you should put in place some kind of a 
buyback program. But it is over two years; how can they wait?
    So maybe you can tell us when these standards are coming 
out, when they can expect to hear the word.
    Mr. Brown. Well, we just announced this past week new 
standards for personal protective gear, so we are well on the 
way of putting those standards out. And that is?
    Mrs. Lowey. Are you going to reimburse fire departments who 
could not wait for the gear that they already bought?
    Mr. Brown. That is something we will have to take into 
consideration and look at.
    Mrs. Lowey. I really think that is very important.
    The chairman may remember that I had a chief come here from 
New Rochelle and he said, ``Look, folks, before you turn to 
code orange, you better provide for code green. Give us some 
money,'' because they have been getting ready.
    Mr. Brown. We just announced those standards this week, and 
it is a great example, also, of the inner workings of the 
Department of Homeland Security.
    I wish Congressman Cardin was here, because this is also in 
response to his question about the private sector.
    That was a joint effort between FEMA and EP & R, Science 
and Technology, Office of Domestic Preparedness and the private 
sector. There must have been five or six different 
organizations representing the private sector at the 
presentation last week, all of whom were involved in the 
development of these standards for personal protective gear.
    At the same time, FEMA has--do not quote me on this--but it 
seems like it is $25 million or $60 million, I forget which it 
is, of demonstration projects out in the field right now to 
bring to us the interoperability projects that we competed 
across the country, that will show us the best practices so 
that we do not mandate every department, ``You can do it this 
way or you do it this way.''
    They bring us the best practices, we pick out the ones we 
think are the most effective around the country, and we will 
hold those up and say, ``Here's a way for you to do it.'' Those 
are due by the end of the year.
    So I think we are making pretty good progress in getting 
those standards and projects out the door.
    Mr. Shadegg. The time of the gentlelady has expired.
    The chair would now call upon the gentleman from Nevada, 
Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, Secretary Brown, I do apologize for my absence during 
your testimony. I have a series of other hearings that are 
going on at the same time.
    Let me turn back, if I may, to an area that was briefly 
touched upon by my colleague, Ms. Granger from Texas, and that 
deals with the Emergency Management Performance Grants.
    And as you know, that is the one way that many of our 
states have of employing individuals in the emergency 
management areas of individual states. And you are proposing a 
reduction down to 25 percent of the pre-existing funds.
    Has the directorate at any time requested inputs in that 
decision from the states regarding how this decision will 
affect their operations?
    And let me ask my second question--and you may address that 
as well: Considering states are presently dependent today on 
federal funds that come from this area for the salaries of 
their emergency management personnel, rather than having a 
dramatic impact by this 25 percent allocation this year, have 
you thought about instituting a less precipitous decline, in 
other words, a phased-in approach to weaning states into a more 
self-sufficiency in these cases, other than the approach you 
have taken today?
    Mr. Brown. That is the first I have heard of the latter, 
Congressman, and that is something that I would certainly 
welcome and encourage us to look at.
    As to your first question, once the budget hit the streets, 
we received a lot of information about the impact that this 
particular decision would have. And I have certainly taken that 
into consideration and I have read every bit of information 
that the states have provided to me about it.
    Mr. Gibbons. Have you gone out directly and asked them or 
has this just been an informal, involuntary response to your 
operation?
    Mr. Brown. It has been part of both.
    Mr. Gibbons. And you have asked.
    Mr. Brown. I have actually asked, talked to some of the 
folks at the National Emergency Management Association, 
including its president, and others about?
    Mr. Gibbons. Have you talked to anyone in Nevada?
    Mr. Brown. Not that I recall, I have not.
    Mr. Gibbons. And when will you make a final determination 
as to the impact that these states or regions have with regard 
to your decision? When will you report on that effect?
    Mr. Brown. I just received I think it was just in the past, 
say, 48 hours the complete breakdown from NEMA about what the 
impact is across all states and localities. And I have just 
started browsing through that yesterday.
    Mr. Gibbons. So what you are saying to the committee is 
that the decision was made before all of the input, all of the 
data that you have now before you, you have made that decision.
    Is there any review process, now that you have this 
additional information, with regard to the Emergency Management 
Performance Grants, rather than continuing down the road of a 
25 percent cap versus a phased-in approach, as suggested 
earlier?
    Mr. Brown. I do not know if there is a review process 
within OMB or not, Congressman, but I will certainly sit with 
my finance folks and see if there is some way that we can do 
that.
    Mr. Gibbons. Well, I think that was the one area that a lot 
of our emergency management personnel in the state of Nevada 
have expressed to me a great concern with.
    They would like to see some adjustment to the policy or the 
practice that you have just established in this bill.
    Mr. Brown. And I will let you know, Congressman, I share 
that concern.
    Mr. Gibbons. With that, Mr. Chairman, I apologize to you 
for being tardy, and I will yield back the balance of my time.
    Mr. Shadegg. I thank the gentleman for his attendance.
    Without objection, it is the chair's intention to offer 
those that remain a second round of questions. And I will begin 
that round.
    Mr. Secretary, I remain somewhat confused about the issue 
of the ability to deploy the stockpile.
    As I understood your answer to a question propounded by Ms. 
Christensen, it was that you believe you have the authority to 
turn to HHS and direct them to deploy the stockpile. That would 
have to arise through some form of executive authority or some 
form of internal department policy, not statute.
    We are in the statute business down here on Capitol Hill. 
And I guess we are interested in where do you get that 
authority. Do we need to clarify that in fact you have such 
authority statutorily or do we need to resolve this issue? 
Because we would not want to be a position where there was any 
ambiguity on that type of any issue.
    So let me begin with that question.
    Mr. Brown. That is something I think we need to come back 
and give you more information on. But right now, if we were to 
have the disaster today, we would probably turn to HHS--we 
needed to deploy it--and task them through the ESF, through our 
operations center, to deploy and utilize it.
    We are also currently working on--I do not think it is 
complete yet--an MOU with HHS by which we are defining under 
what circumstances we have agreed that we will deploy it and 
they will go do the things we ask them to do.
    Mr. Shadegg. But you cannot say for me at the moment, 
specific, either executive order or statutory authority?
    Mr. Brown. No.
    Mr. Shadegg. Okay. Well, I agree with you. We need to get 
the clarification from you because that authority ought to be 
clarified.
    I did not hear, in response to my earlier question, a 
definitive answer from you on the issue of preparedness versus 
response. It seemed to me that in your answers to some other 
questions I heard you say, ``Well, we work with the people 
doing preparedness elsewhere in the department and we are 
comfortable with that.''
    In the absence of a specific grant of authority, and 
therefore responsibility, I worry, and I think Congress would 
worry about who to hold accountable on the preparedness issue.
    So if in fact, as a practical matter, you are functioning 
with some of the preparedness functions or responsibilities 
shifted elsewhere as a working arrangement, again, that looks 
to me like it ought to be formalized.
    And in the creation of new department, sometimes you find 
you have to fine tune the law to account for a reality on the 
ground and what actually works.
    So let me ask it again: Do you see--and maybe the answer to 
this is already provided by what you are doing--a value 
investing the preparedness functions somewhere else as opposed 
to the response function?
    Mr. Brown. And, Congressman, my answer is this: You must 
have a link between preparedness and response in order to be 
effective. If you do not have that link, then I am afraid that 
Congressman Turner is absolutely correct that FEMA will revert 
back to its early days of not being effective.
    So my job, my goal is to make sure that that link is there 
wherever and however I can create it and make sure it exists.
    Mr. Shadegg. And I think we ought to explore that further 
in conversations as we go forward to make sure we clarify it.
    Let me ask you a couple of other questions that I had said 
I would submit in writing to see if we can get a couple of 
those done.
    There are a number of private entities in the Phoenix area 
that have come together to form a disaster and medical 
assistance team. A long list of cities in the metro area are 
interested in participating and yet they have been told that no 
new teams are being recognized to date.
    I realize you are trying to build a capacity of the 
existing teams over a several-year period. I would like to know 
what you have learned and when you think we will be able to get 
an answer on the creation of new teams?
    Mr. Brown. I hate to speculate, because we are truly taking 
all of the NDMS teams now, doing a complete evaluation. It was 
started by HHS, but we are doing it kind of now with our 
personnel the way we do evaluations and assessments.
    And I would hope that by the end of this calendar year we 
at least have an idea of the capacity of all those teams, their 
location, our ability to strategically deploy them and whether 
or not we need to increase the numbers.
    It is much like the US & R teams. I do not go out and just 
willy-nilly create new teams until we know exactly what we have 
and what their capacity is.
    Mr. Shadegg. So at this point, you do not have a date that 
you can bring--.
    Mr. Brown. We have no date, sir.
    Mr. Shadegg. Emergency communication systems, I think they 
are extremely important. As you know, the broadcasters have 
been propounding some idea of assisting along the line of the 
Amber Alert program.
    Can you tell us where the directorate is with regard to 
those kinds of communications? Are you working with the 
broadcasters? How close are we to implementing an improved 
emergency communications system?
    Mr. Brown. I do not know how close we are to coming to a 
final product, and I will certainly get that information to 
you.
    I will tell you, Mr. Chairman, that we are working 
incredibly close with Partnership for Public Warning and the 
broadcasters and all of those groups out there right now to see 
what do they have and educating them on what we have and see 
what kind of link-ups we can make.
    Mr. Shadegg. Last question I had.
    There are many groups that are interested in participating 
in crisis counseling and getting crisis counseling grants. I 
happen to be in communication with NOVA, which is the National 
Organization of Victim Assistance programs. They would like 
their trained volunteers to be able to assist in that. And 
there are others that are interested in participating as well.
    Can you tell me whether or not we are looking at expanding 
the participation in those crisis counseling grants?
    Mr. Brown. We are, Congressman.
    I meet probably at least once every couple of months with a 
private organization about the services they have to offer and 
how we can either through HHS or through FEMA and DHS itself 
reach out to some of those to perform programs for us that we 
think are worthwhile and are going to actually assist victims 
or communities after a disaster.
    Mr. Shadegg. I thank you, and I look forward to working 
with you in the future.
    The chair would now call upon Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Under Secretary, generally every time members of 
Congress come in contact with police departments or airport 
authorities, there is always the question of when the terror 
alert is elevated there are a number of costs that are 
associated with that.
    This committee has looked at legislation creating a 
reimbursable fund or something of that nature. And I think 
since the elevated alert is something created by your 
department, in your opinion, does that make sense?
    Mr. Brown. It is an idea I would have to look at, 
Congressman.
    And I think what I would ask you to do is, as you look at 
that kind of legislation, work closely with us. Because I know 
that Secretary Ridge and others, particularly in the 
Information Analysis and the Infrastructure Protection Group, 
are looking at the alert system and how do we need to tweak it, 
refine it, fine tune it.
    And so, I think if we work together, we could probably come 
up with some sort of idea that would help state and locals.
    But I would hate to see us both just continue down some 
path without talking to each other.
    Mr. Thompson. Well, but you do understand that there are 
costs associated with the heightened alerts that right now is a 
burden on the backs of local government, and the pressures that 
we feel from those units of government to do something.
    Mr. Brown. Trust me, I understand and recognize what those 
concerns are.
    Mr. Thompson. Look forward to working with you.
    Mr. Shadegg. The chairman calls on the gentleman from New 
York, Mr. King, for five minutes.
    Mr. King. Mr. Chairman, I actually arrived late, so 
actually I just have a question regarding the BioShield, unless 
you covered this in your testimony.
    I am just wondering, how is the lack of Project BioShield 
authorization legislation affecting the department's efforts to 
encourage development of necessary medical countermeasures?
    Mr. Brown. Congressman, I am one of those that understands 
the three branches of government. And I would encourage you and 
hope that we get some authorizing legislation.
    But I am also a realist and recognize this war that we are 
fighting right now. And so the department is moving forward. 
And if we need to do certain things to utilize that funding, we 
may have to do that in the future. But I would feel much more 
comfortable if we had an authorizing legislation.
    I think the president yesterday encouraged Congress to move 
on it and get that done.
    Mr. King. Now, with that language not being there, how is 
the department working to encourage the pharmaceutical and 
biotechnology companies to develop and manufacture the new 
vaccines and other bioterror countermeasures?
    Mr. Brown. We are working with some of the pharmaceuticals 
right now, Congressman, on some of additional new anthrax 
vaccines, and are fairly close to moving forward on it.
    Mr. King. Can you define what you mean as far as 
``working,'' or you prefer not to at this time?
    Mr. Brown. No, I would just say that we are talking about 
some of the new vaccines that we think we may need in the 
anthrax area. And we are actually in discussions with them 
about what we could utilize and how we could fund some of that 
production.
    Mr. King. Thank you.
    Mr. Shadegg. The chair would call on the gentlelady from 
the Virgin Islands, Ms. Christensen, for a second round.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I have basically two questions. I would like to follow up 
on the BioShield because, just to ask basically, how does your 
directorate interact with the Department of Health and Human 
Services?
    We had many hearings, and I am glad to hear that our delay 
in really doing the authorizing will not hold up anything that 
must be done.
    But how does the Department of Health and Human Services 
work with you on that? How does that work?
    Mr. Brown. Well, again, we go big picture. Department of 
Homeland Security understands what the threat is, based on the 
intelligence fusion that we do within the department, kind of 
where we need to be going in terms of preparing for bioterror 
attacks. The expertise of what kind of pharmaceuticals, what 
kind of medicines, what kind of antibiotics, that rests within 
HHS.
    So, believe it or not, Congresswoman, there really is this 
incredible cooperation between the departments about: What do 
we need? How are we going to go get it? What do you recommend, 
you know, HHS, in terms of what kind of mediations? Here is the 
threat that we see and understand, now what are we going to do 
with the drug companies?
    There is that kind of cooperation almost on a day-to-day 
basis.
    Mrs. Christensen. Well, I am glad to hear that, but I am 
always concerned because sometimes it depends on the people 
that are in the office. And I am not sure that the 
infrastructure is there to ensure that that cooperation 
happens.
    Mr. Brown. Of course, it is government, so it always boils 
down to people.
    But I think what you have imposed on the people now within 
our bureaucracies and all these departments and agencies--at 
least I know it is true within FEMA and I have seen it within 
HHS--is this new-found feeling of urgency and necessity that we 
cooperate and do this.
    We cannot be bureaucratic. We cannot be lazy about this 
stuff. We have to move expeditiously, cooperatively, and we 
have to forget about these stupid turf wars.
    Mrs. Christensen. I agree.
    In the budget, I guess, under Preparedness, you said--or it 
is written that in 2005, Preparedness will assess 10 percent of 
tribal nations, 5 percent of U.S. counties under EP & R's 
national emergency management baseline capability assessment 
program, so up by 2009, 50 percent of states, 20 percent of 
tribes and 25 percent of counties.
    Am I to assume that under states, territories is included?
    Mr. Brown. Yes. I am sorry, I was not sure--.
    Mrs. Christensen. Just want to be sure.
    Mr. Brown. Yes.
    Mrs. Christensen. Because it specifically talks about
counties--.
    Mr. Brown. Yes.
    Mrs. Christensen. So I can be assured that in that 
assessment--.
    Mr. Brown. Absolutely.
    Mrs. Christensen. --the territories are included.
    I have no further questions, Mr. Chairman.
    Mr. Shadegg. I thank the gentlelady.
    The chair would now call upon the gentleman from Nevada, 
Mr. Gibbons, for a second round of questions.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, Secretary Brown, I had just one area that I would like 
to question you on.
    I did look back and read though your testimony. You talked 
a brief bit about the Disaster Relief Fund in your testimony 
and I appreciate that.
    My curious thought is, is that looking back at the events 
of September 11, 2001, the overall cost to the taxpayers of 
this country that were put into assisting those people in that 
disaster seemed like a tremendous or an enormous amount of 
money that was placed out of the U.S. Treasury into helping 
those people, and probably rightly so.
    My initial questions is, is the $2.1 billion proposal in 
the president's budget adequate when you consider the overall 
picture of multiple-city threats that we have had in the latest 
round of terrorist threat warnings? Do we believe today that 
what we are asking for is adequate to cover that?
    And how much money do you project will remain unexpended in 
this budget from previous years' obligations with just this 
$2.1 billion request?
    Mr. Brown. I would say, first of all, Congressman, that the 
overall request represents the president's recognition that we 
need to fully fund the DRF at our historical level of $2.9 
billion.
    So that is great news for us. That puts us in a good 
position of not worrying about getting money out to victims, as 
we face disasters in the future.
    We currently have about $1.8 billion that is unobligated in 
the DRF. Our monthly burn rate is about $300 million a month.
    So based on our unobligated amount, our expected 
recoveries, we think this fully funds us for our historical 
average over the past five or 10 years.
    Now, having said that, if we have another terrorist attack 
that involves multiple cities, or is something that none of can 
imagine, all bets are off. And I cannot sit here in good faith 
and say to you that $2.9 billion, which is a historical average 
in the DRF, is sufficient to allow us to respond to or to take 
care of victims in some unforeseen, catastrophic terrorist 
event.
    Mr. Gibbons. So much like what the Department of Defense 
does, it is unable to project where an outbreak of demand or a 
military action will take place.
    You would be looking then to come back to Congress under 
some sort of a supplemental then if it were necessary to fill 
this out?
    Mr. Brown. Only if it were necessary, and I would say only 
in some sort of catastrophic event that causes us to completely 
deplete the DRF above and beyond what we normally do in a 
normal disaster year.
    In our world, the term ``catastrophic'' is a term of art, 
so I am talking about a truly catastrophic event that affects 
literally tens of millions of people.
    Mr. Gibbons. So the $2.9 billion is literally your best 
estimate of what you will need in not only future expectations 
in the coming year but also to cover your existing obligations 
from previous years' obligations?
    Mr. Brown. That is correct. That gets us to our historical 
average over the past five to 10 years.
    Mr. Gibbons. And I would agree: There is really no way to 
look into the crystal ball and foretell the future.
    Mr. Brown. That is right.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Brown. Now the chair would call upon the gentleman from 
North Carolina, Mr. Etheridge, who was here at the outset of 
the hearing and waived his opening statement and is therefore 
entitled to eight minutes for questioning.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And, Mr. Secretary, I apologize for having to step out. But 
as you know, some of us have two meetings going at the same 
time. Thank you.
    And let me thank you for being in North Carolina last week 
in bad weather to listen to our first responders. I will not 
cover that area. I assume you have already covered that 
adequately. I am sure they explained to you the needs and 
challenges they face.
    Let me go to a couple of other areas in my allotted time.
    In the national response plan, states that, ``private 
business and industry play a significant role in helping to 
mitigate the physical effects and economic costs of domestic 
incidences.''
    According to the plan, the Secretary of Homeland Security 
would urge business to identify their risk, develop contingency 
plans and to take actions to enhance their overall readiness.
    That being stated, in your budget justification document, 
you mentioned the Business and Industry Preparedness and 
Response Partnership. Would you describe what this program is 
and what its goals are?
    Mr. Brown. That is our attempt to reach out to businesses 
at the state and local level who need to do exactly what you 
just described. It is in their best economic interest to take 
care of their employees, take care of their business, just like 
we have continuity of operations plans, for them to do also.
    So this is really an outreach effort to encourage them to 
do exactly the same thing.
    Mr. Etheridge. That being said then, to what degree is the 
government relying on the private sector to take care of 
itself?
    Mr. Brown. That is a great question, Congressman. I am not 
sure that I know the answer to that, but I will get back to you 
with an answer on that.
    Mr. Etheridge. Okay. I think that is important as we, you 
know, develop this partnership.
    Secondly, private sector representatives, were they 
involved in defining their roles in the emergency preparedness 
and response? And if so, how? And if not, why?
    Mr. Brown. They were.
    We have an incredibly good relationship because of having a 
private sector office within DHS. Al Martinez-Fonts is the 
director of that office, a former banker from New York and I 
think in Texas, who is doing outreach in conjunction, not just 
with FEMA, but all of the other directorates to bring the 
private sector to the table so we know what their concerns are 
and we can have this dialogue about what can they do, how can 
we help them and vice versa.
    It is a great office and I am very thankful it is there.
    Mr. Etheridge. That being said, then, how will you know if 
the business community and the people you are engaging do not 
follow your suggestions? And will it take a disaster or a major 
domestic incident to find out whether or not that is happening?
    Mr. Brown. Well, the terse answer is yes. It will probably 
take a disaster to find out whether they have really done 
things or not. But I hope we do not rely on that. I hope that 
we do enough outreach and that we do enough discussions with 
them that we know what their capabilities are, because we are 
going to rely upon them in a disaster.
    I go back to Hurricane Isabel. It is not the federal 
government's responsibility to turn on the power. We have to 
rely upon the utility companies to do that. So we have got to 
have a good working relationship with them to understand what 
their capacity is, understand what we can do to assist them, by 
clearing roads and doing things so they can get in to restring 
line.
    Mr. Etheridge. Let me just make a suggestion in that 
regard. It seems to me some kind of mechanism for a trial run 
to sit down periodically for an update would be a great tool, 
rather than wait to find out--.
    Mr. Brown. I agree. I agree, and I will go back to staff 
and talk to them about.
    Mr. Etheridge. Please do.
    Let me move to another, if I may.
    In your description of the preparedness programs fiscal 
year 2005 goals, you referenced FEMA's intention to conduct 
terrorist-related training, as it relates to the increased risk 
in our nation's schools.
    Would you share with us this training program or anything 
else FEMA is doing to make our schools safer? That is something 
of I think great interest to all of us, and me very 
particularly.
    Mr. Brown. Two things. We are going to start an outreach 
program not only for businesses but for schools also.
    Currently, the secretary has a great program that I will 
tout right now, Ready.gov and 1-800-BE-READY, where we reach 
out to individuals about what they can do to prepare 
themselves. We are getting ready to do the same outreach to 
businesses and schools.
    And I wish I had brought with me today our training and 
exercise schedule for this upcoming month because there are 
literally hundreds of exercises that we do and we are 
encouraging at the local level for schools and other entities 
to be involved in some of those exercises.
    Mr. Etheridge. Let me follow that up.
    When you talk about schools being involved, are you talking 
about you are providing resources for them similar to what I 
assume the schools did in the 1950s and early 1960s with the 
whole issue of disaster being concerned about the nuclear 
issues? Or are we just telling them to be aware or what?
    Mr. Brown. We have not reached that level, and I think 
right now we are just basically doing outreach to the schools 
and giving them information and encouraging them to be a part 
of anything that might be going on in the state and local 
governments.
    We are not doing anything specific, exercising them, no 
``duck and cover'' exercises or anything like that.
    Mr. Etheridge. Well, it seems to me that to be effective 
you really need them engaged on the front side rather than on 
the back side, because they have about all they want on their 
plate right now.
    Mr. Brown. Congressman, we need everybody at the state and 
local level involved in this.
    Mr. Etheridge. And that would be of great help.
    Mr. Brown. Let me just touch one issue that I guess is now 
a couple years ago.
    Congress passed a bill that I had introduced and a lot of 
my colleagues to sign on--I think most all of them here have--
regarding the flood indexing system, similar to the Saffir-
Simpson Scale on wind, to deal with on floods as related to the 
whole issue of mitigation.
    And one of FEMA's stated goals is to develop and update 
existing public warning and communications guidance material 
for states and local jurisdictions.
    Mr. Etheridge. And my question to you: Is the funding and 
development of this flood warning system included in this plan?
    Mr. Brown. I do not know. And I am not familiar with that. 
I need to find out more about that.
    Mr. Etheridge. Would you check the matter? Because it 
should be coordinated. NOAA, I know, is working on it. Got 
money appropriated last year and it ought to be a part of 
FEMA's deal.
    Because the goal was to get an index so that if, you know, 
a hurricane is coming in and flood waters are moving, the way 
that this will let people know that ``you are not having a 
flash flood.'' What does that really mean?
    Mr. Brown. Right.
    Mr. Etheridge. Is it six inches or six feet?
    Mr. Brown. I will find out more about that.
    Mr. Etheridge. Thank you.
    And finally--for my time is almost out--while we continue 
to focus on the immediate threats of homeland security and 
natural disasters, they still are the big issue that most state 
and local governments deal with.
    I know in my home state, we sort of stick out there and, 
you know, we get hit with about every hurricane or tornado or 
flood, et cetera. And in the 2003 law that took effect, they 
changed the post-disaster Hazardous Mitigation Grant program 
from 15 to 7.5 percent of the disaster cost. This change has 
put major hurt on local governments and others.
    How would you see that mitigation across the nation would 
improve if we restored that back to the 15 percent?
    Mr. Brown. Well, if there are additional resources, we 
would certainly use those to just do more mitigation projects 
around the country.
    But I think the president struck a pretty good balance of 
doing both pre-disaster and post-disaster, because I do not 
think we should really favor one over the other. We ought to 
convince people as much as possible to do as much pre-disaster 
mitigation as they can because in the end that will save the 
taxpayers money.
    Mr. Etheridge. But if we do not do it, we are going to pay 
anyway.
    Thank you, Mr. Chairman.
    Mr. Shadegg. The time of the gentleman has expired.
    The chair would now call upon the chairman of the full 
Select Committee on Homeland Security, the gentleman from 
California, Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome again, Under Secretary Brown.
    I just want to follow up on the chairman's questions in the 
discussion that the two of you had because, as you know, we are 
writing legislation to completely overhaul the way we do first 
responder grants.
    And I want to get your sense of our legislation and in 
particular the role that your directorate plays or might play 
under our legislation in first responder grant making?
    Mr. Brown. Mr. Chairman, I would love to see this 
directorate play as significant a role as you and the president 
can work out, because I think that this particular directorate 
has the best relationship with the first responders. We 
understand what their needs are.
    And I might add, when I talk about first responders, I am 
talking about not just the firefighters, but it goes all the 
way to the public health officials, the public works people, 
law enforcement, all of those folks that respond initially to a 
disaster of any kind, and that is who we have the relationships 
with, that is who we have to rely upon and work with every 
single day before a disaster occurs and after one occurs.
    So to the extent possible, I would like to see us evolve as 
much as possible in that relationship, in that future 
relationship.
    Mr. Cox. I am just getting a note about some of what was 
discussed while I was out of the room.
    In our legislation, we are proceeding from the premise that 
before 9/11 there were priorities for first responders that 
haven't anything to do with terrorism and that post-9/11, those 
priorities are still there, that we had grant programs 
established for pre-9/11 programs and that we do not want to 
rob Peter to pay Paul in the post-9/11 environment.
    So we want to protect those programs from being stretched 
to do double duty and rather make sure that we are focused in 
addition to those pre-9/11 missions on the new mission of 
homeland security, which ought to be threat-based, we ought to 
be matching our known vulnerabilities to the threats that our 
intelligence analysis within homeland security tells us we 
face, the known capabilities and intentions of our would-be 
terrorist enemies.
    The discussion of an all-hazards approach tends to fudge 
this principle in the sense that what we are trying to do is 
make sure we can maintain an all-hazards approach by not 
shortchanging these pre-9/11 programs. And we have had a lot of 
favorable response from the first responder community for this 
reason.
    What I hear coming from the department, on the other hand, 
is that in order to maintain an all-hazards approach, we have 
to mix all of these grant programs together. I wonder if you 
could help us by giving us your views on that?
    Mr. Brown. I was trying to listen very closely to what you 
said. And the second way that you said it I thought really 
summed up at least my philosophy and that is that you must 
always have the all-hazards approach.
    And what you are trying to find is, is this right mix such 
that the dual-headed things that are both a natural disaster or 
a nonterrorist incident that is still--you know, you can have a 
chemical attack or you can have a chemical incident that is not 
terrorism that is going to require the same kinds of things, 
whether it was--if it was terrorism.
    You are going to have those same kinds of incidents where 
equipment crosses both boundaries, a natural disaster and a 
man-made intentional or nonintentional incident. And what you 
have to do is strike the balance such that you do not denigrate 
one or any of the above.
    Mr. Cox. Well, let me be as precise as I can in asking it.
    My concern is that we are going to lose the focus of the 
FIRE grant program and we are going to lose the focus of 
homeland security because we are spending money in ways that 
are so malleable and so fungible that there is no 
accountability.
    If being prepared to respond to a chemical spill or a 
forest fire were the mission of the Homeland Security 
Department, I do not think I would have voted to create it 
because, to be honest with you, we already had that focus at 
FEMA. We already had a government that was prepared at the 
federal, state and local levels to deal with that.
    What we need to do to make sure that--and you have heard it 
said many times that we do not want homeland security dollars 
to be buying people new fire trucks. We have talked about 
mutual aid in lots of ways to ensure against that. But we do, 
on the other hand, want people to have new fire trucks. We do 
want them to be prepared for fires and all the things that 
happened before 9/11.
    So I am worried that we are going to get the worst of all 
possible worlds if we bastardize the FIRE grant program, just 
to use that as one example, and try and make it do double duty 
as a homeland security program and we do not have any program 
in the federal government that is focused on the mission of the 
Homeland Security Department, which is to prevent, prepare for 
and respond to acts of terrorism, acts of mass murder that are 
different from all these other, you know, all-hazards events.
    Mr. Brown. But now I want you to come down here and sit in 
my chair, because that is exactly what I have to do, Mr. 
Chairman, is that I have to--FEMA has to be able to respond to 
all of the above.
    Mr. Cox. And so do our first responders.
    Mr. Brown. Right, they do.
    Mr. Cox. And is there going to be a grant program that is 
focused on homeland security, or are grant programs going to be 
just focused all over the place--unfocused as it were--so that 
we do not have any accountability from reaching our homeland 
security objectives, which are measurably distinct from the 
pre-9/11 program?
    Mr. Brown. I do not know. And I certainly do not want to 
tell you or even suggest how to do your business.
    But it seems to me that there has got to be some mechanism 
by which you do not lose both of those objectives. And whether 
that is a formula, whether that is two separate grant programs, 
I do not know. That is something that all of you will have to 
decide.
    But you cannot lose the basic capacity--and again, speaking 
with my FEMA hat on here, I cannot lose the ability to respond 
to the wildfires in California at the same time that I cannot 
lose my ability to respond to another 9/11 attack.
    And so that is the dual hat that I wear, and so that is why 
I struggle when I hear about we can not lose either one. That 
is what I struggle with every day. I cannot lose either one of 
those capacities.
    Mr. Cox. How does moving ODP into the Office of the 
Secretary help you do your job at EP & R?
    Mr. Brown. Well, will make certain that whatever 
connectivity I need to create out of my portion of the 
department in ODP that I will create that connectivity so that 
I do not lose that tie between preparedness and response 
because I have to keep that.
    Mr. Cox. I think this committee is very interested in 
making sure that the expertise within your directorate is added 
to the DHS grant-making process for homeland security. And one 
of the reasons we are taking the approach that we are taking in 
our legislation is to ensure that result.
    Well, we will look forward to continuing to discuss the 
legislation specifically with you and also ways that we can 
achieve what you have been talking about here today, which is a 
focus on preparedness as well as on response, a focus on the 
entire role of the EP & R Directorate, not just the legacy FEMA 
part.
    Mr. Brown. You know, Mr. Chairman, it does have to be both 
of those for us to be effective.
    Mr. Cox. I thank you, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman for his questions.
    As he knows from our personal conversations, I struggle 
with the issue that you raised in your questioning. I am having 
a hard time seeing the connection between the function of FEMA 
with regard to natural disasters fitting within the concept of 
homeland security. And I think this is an issue we ought to 
explore.
    Of course, responding to natural disasters is an important 
function and one for which this Congress, as you can tell from 
the questioning today, wants to hold you accountable and wants 
you to do a great job for the people of America.
    I continue to be worried, as I have expressed to you and I 
have expressed to the chairman of the full committee, about 
whether or not we are losing focus on the function of 
preparedness and response for terrorist attacks.
    And as I have pointed out to you, there is at least one 
distinguishing characteristic between natural disasters and 
terrorist attacks, and that is you can do something to stop a 
terrorist attack within the realm of reason, where it is pretty 
difficult to do something to stop a hurricane within the realm 
of reason.
    So I look forward to continuing to work with you on that 
point.
    The chair would now call upon the author of the 
Congressional Accountability Act, the distinguished gentleman 
from Connecticut, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you for 
conducting this hearing and thank you to the staff for all its 
good work.
    I first want to just have a sense from you, Mr. Brown, if 
you would, as head of the directorate for EP & R, you ARE not 
the FEMA director, but what are you?
    Mr. Brown. I actually carry kind of a dual hat. I am the 
Under Secretary of Emergency Preparedness and Response and the 
Director of FEMA. FEMA is, in essence, what is in EP & R.
    Mr. Shays. Okay. But is that 90 percent of what is in EP & 
R?
    Mr. Brown. Well, it depends on how you want to make the 
analysis. If it is the numbers of personnel, yes, 90 percent of 
it is FEMA. If it is--well, actually, probably if you do it on 
any basis--personnel, money, whatever--it probably is FEMA.
    Mr. Shays. Is the National Domestic Preparedness Office up 
and running within your organization?
    Mr. Brown. Yes, that is what we inherited, NDPO, from the 
FBI, I believe.
    Mr. Shays. And how many people do you have in that?
    Mr. Brown. I do not think any people came with it. Nope, it 
came with no people.
    [Laughter.]
    Mr. Shays. So it is there but it is not there?
    Mr. Brown. Well, it is there and I have taken folks in my 
Preparedness Office and given them those responsibilities, but 
it came with no people or money.
    Mr. Shays. Why would people not have come with it? I mean, 
how many people were there when it was under the Department of 
Justice?
    Mr. Brown. I would have to get that information for you, 
sir. I do not know.
    Mr. Shays. Well, it would be something I would want to know 
if I were in your position.
    Can you give me a sense of what I know you are wrestling 
with?
    And first off, we have to cut a lot of slack to DHS and 
still keep pushing, because it is a mammoth task and I know we 
are getting safer every day.
    But I have this gigantic concern that we are wasting 
resources and we do not know how to evaluate the resources we 
are spending.
    For instance, I do not yet know what DHS is doing with the 
capability studies of communities. When is that going to be 
completed? When will you know their capabilities?
    Mr. Brown. Well, FEMA has already done its--and we have 
done on an ongoing basis--our CARs, Capability Assessment 
Reviews, so we have in house our assessments from an all-
hazards point of view.
    And I will go back and ask the department what their--I 
mean there must be something else going on within ODP where 
they are doing--.
    Mr. Shays. You see, what we do not have, and Mr. Cox has 
put it in his bill, we do not have from the Department of 
Homeland Security really a set of standards yet to evaluate 
what we are giving the first-line responders.
    Mr. Brown. See, we have that within FEMA. I mean, FEMA has 
the ability to go back and find out what are our assessments of 
the states and locals, our assessment of did they use the money 
we gave them for the purposes for which we gave it, what kind 
of increasing capability did we get for that? We have that 
capacity within FEMA.
    Mr. Shays. When you say you know what local--you cannot 
tell me what Kent, Connecticut, needs. You cannot tell me the 
capabilities of Kent, Connecticut, which is not in my 
district--I am using a small somewhat innocuous town.
    But Kent, Connecticut, is getting money and being provided 
certain capabilities by DHS, which it simply may not need, but 
we are giving it to everybody because we do not have standards 
to know if New York--how do we determine what the threat is to 
New York and therefore New York City? Therefore, what is the 
threat to neighboring communities?
    And so we may be giving per capita something to Kent, 
Connecticut, that we give to the same community in Westport, 
Connecticut, and yet we do not know if that is wise to do.
    And I am just trying to figure out when we get that done. 
Are you saying that is outside your area of expertise and 
jurisdiction?
    Mr. Brown. It is. But I am saying that we also have within 
our area of expertise the ability to do assessments of the 
states and locals to find out what their abilities are, at 
least from a natural hazards point of view. And I think that 
can be a model for what we do department-wide.
    Mr. Shays. Well, this is my confusion, but it seems to me 
FEMA is in the best position to have initiated within the 
Department of Homeland Security what first-time responders 
need.
    Mr. Brown. I think we do have the capacity, sir.
    Mr. Shays. But we have not done it yet?
    Mr. Brown. I think ODP and other parts of the department 
are doing their analysis of what they think they are, of what 
their capacity--.
    Mr. Shays. Are they interfacing?
    Mr. Brown. --based on a threat analysis.
    Mr. Shays. Right. And how are they using your part of DHS 
to do that?
    Mr. Brown. I will get back to you on that, Congressman.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Shadegg. Mr. Under Secretary, I want to thank you again 
for your hard work on behalf of the American people. I also 
want to thank you for your work in preparing for today's 
hearing and for your thoughtful answers to our questions.
    It is highly likely that other members of the committee 
will have follow-up questions which will be submitted to you, 
and we look forward to a timely response to those.
    For the record, let me announce that the hearing record 
will remain open for 30 days for the submission of additional 
questions by other members of the subcommittee.
    And with that, the subcommittee will stand adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

Questions for the Record From The Hon. Bennie G. Thompson For The Hon. 
                            Michael D. Brown

    The Subcommittee remains concerned that multiple assessments of 
state and local capabilities are being conducted by multiple 
organizations within the Department of Homeland Security (DHS). The 
Subcommittee is unclear as to the purpose of these assessments and how 
this assessment information is being shared within DHS.

Question 1: What assessments of state and local government capabilities 
have been conducted by the Emergency Preparedness and Response 
Directorate (EP & R)?
Answer: EP & R sponsors or has sponsored several capability assessment 
initiatives at the State and/or local levels:
        1. The National Emergency Management Baseline Capability 
        Assessment Program (NEMB-CAP)
        2. Geospatial Preparedness Needs Assessment
        3. Needs Assessment of the U. S. Fires Service (prepared by the 
        National Fire Protection Association).

Question 2: Please describe the purpose of these assessments, and 
provide the results of these assessments with the Subcommittee. If the 
content of these assessments is sensitive or classified, please 
schedule and provide the Subcommittee with a classified briefing on 
these assessments.
Answer: 1. NEMB-CAP is a voluntary, multi-year effort to assess, 
analyze, evaluate, and collectively frame state emergency management 
capabilities against a common national standard. For this effort, FEMA 
is employing the Emergency Management Accreditation Program (EMAP) 
Standard and associated assessment methodology. The assessment 
methodology involves the State completing a comprehensive self-
assessment, followed up with an on-site, week-long assessment visit by 
a team of trained, independent peer assessors. FEMA will analyze 
reports to identify individual and collective capability strengths and 
weaknesses, for the purpose of establishing a national capability 
baseline and helping the Department of Homeland Security (DHS) to 
target homeland security and emergency management assistance strategies 
to areas of greatest common need. Actual assessments of state and 
state-level jurisdictions began in January 2003, and are projected to 
be complete by the end of 2005, at which time a final report will be 
prepared.
    2. The Geospatial Preparedness Needs Assessment (initiated by FEMA, 
subsequently transferred to the DHS/Office of the Chief Information 
Officer (OCIO)) was initiated to determine the current level of 
geospatial preparedness among State, local, and Tribal emergency 
management and first responders, based on information collected from a 
series of needs assessment workshops held within FEMA Regions. A final 
report has not been released.
    As of June 14, 28 states/state-level jurisdictions have completed 
assessments. NEMB-CAP Progress Reports are prepared by FEMA at six-
month intervals. The Progress Report for the first six-months of 
assessments was published in the fall of last year. The second Progress 
Report (reflecting the status of assessment findings through CY 2003) 
is currently being prepared and should be available in July. Attached 
is a copy of the progress report for the first six months of 
assessments.
    3. Needs Assessment of the U. S. Fires Service. PL 106-398, Section 
1701, Sec. 33 (b) required that the Director of FEMA conduct a study in 
conjunction with the National Fire Protection Association (NFPA) to 
survey fire service personnel on their current roles, activities, and 
funding priorities. . This study was published in January 2003, and can 
be reviewed at the following link: (http://www.usfa.fema.gov/downloads/
pdf/publications/fa-240.pdf).

Question 3: What other assessments of State and local government 
capabilities are being conducted by DHS? Does the EP & R Directorate 
have access to these assessments, and if so, please describe the 
mechanism for your access to these assessments.
Answer: Multiple assessments are being conducted within DHS, in pursuit 
of functional area requirements. FEMA has or can gain access to these 
assessment reports, based on need.

Question 4: What mechanism is utilized by DHS to ensure that the 
content of all state and local assessments is not duplicative, and how 
are the results of all assessments coordinated and shared within DHS to 
develop a comprehensive picture of state and local capabilities?
Answer: DHS has developed an implementation strategy for HSPD-8, a key 
objective of which is the reconciliation of duplicate reporting 
requirements. The Office for Domestic Preparedness is leading that 
effort. EP & R will be establishing a single web-based compliance 
assurance mechanism under the National Incident Management System 
(NIMS) Integration Center. This tool, the National Incident Management 
Compliance Assurance Support Tool, will provide positive assurance that 
state and local jurisdictions are in compliance with the NIMS, and will 
include linkages to other assessment systems that support incident 
management preparedness.
    The EP & R Directorate's FY 2005 budget eliminates funding ($50 
million) for the Metropolitan Medical Response System (MMRS), stating 
that the program largely duplicates activities funded by the Department 
of Health and Human Services. In response to questions about the MMRS 
program from the Subcommittee, you stated that EP & R had conducted an 
assessment of the progress of MMRS program participants, and that these 
participants had achieved their ``baseline capability.''

    Question 5: What is the baseline capability of an MMRS participant, 
and how was this capability determined?
Answer. The MMRS original jurisdictional contract requires a series of 
deliverables. These deliverables cover an array of capabilities 
considered essential to being able to respond to a mass casualty/
weapons of mass destruction WMD event. Adequacy of the deliverables is 
assessed by the Regional Project Officers (POs) using an evaluation 
checklist. PO approval is required before the jurisdiction can voucher 
for payment. We utilize the 12 deliverables established between 1999-
2001 that were put in place by the Department of Health and Human 
Services (DHHS).
    Deliverable
        1. Meeting with Project Officer
        2. Development plan
        3. MMRS plan
        4. Forward movement of patients
        5. Plan for responding to a chemical, radiological, nuclear, or 
        explosive WMD event
        6. Plan for Metropolitan Medical Strike Team (MMST) if it is a 
        component of your MMRS
        7. Plan for managing the health consequences of a biological 
        WMD
        8. Local hospital and healthcare system plan
        9. Plan for identifying training requirements along with 
        training plan
        10. Provide a list of pharmaceuticals and equipment along with 
        maintenance plan and procurement timetable
        11. Progress reports
        12. Final report
    Planning and preparedness efforts are ongoing and, by definition, 
are not complete. As of today, 77 out of 124 MMRS jurisdictions, or 
over 60 percent of all program localities, have completed their 
baseline capability development. All 124 MMRS jurisdictions however 
have active contracts that provide for approved deliverables. For some 
of these contracts the period of performance extends to December 19, 
2005. Fiscal Year 2004 MMRS funding for jurisdictions is being provided 
through grants, period of performance October 1, 2004 to March 31, 
2006. . Sustaining and enhancing these capabilities is within the scope 
of the Administration's budget request.

Question 6: Please provide the Subcommittee with a copy of the results 
of the assessment report that determined that the MMRS participants 
have achieved their baseline capabilities. If the content of this 
assessment is sensitive or classified, please schedule and provide the 
Subcommittee with a classified briefing on this assessment.
Answer. For each required deliverable, there are assessment criteria 
contained in the Contract Deliverable Evaluation Instrument to 
determine whether the MMRS jurisdiction has met the terms of the 
contract, addressing all the elements of each deliverable specified in 
the contract. The MMRS jurisdiction submits the deliverable to an 
assigned PO, who then evaluates it, ensuring the jurisdiction has 
complied with the contract. Upon evaluation, the PO may return the 
deliverable to the jurisdiction for further work, or submit it to the 
Program Manager for final approval. Attached is the 2002 Contract 
deliverable instrument for your review.
    As you know, the Emergency Management Performance Grants (EMPG) 
Program is an important grant mechanism that supports the state and 
local emergency planners. The fiscal year 2005 President's Budget 
request reduces the funding level for this program from current levels, 
and places a 25 percent limit on what can be spent on personnel. In 
response to questions from the Subcommittee, you stated that EMPG 
resources not utilized for personnel would now be utilized for state 
and local training and exercises.

Question 7: How does EP & R plan to increase state and local training 
and exercises while at the same time reducing the state and local 
personnel who would need to attend training and conduct exercises?
Answer: The President's Budget does not propose any reduction in State 
and local personnel, as State and local public safety and emergency 
response staffing levels are not dictated or controlled by the Federal 
government. The President's Budget seeks to emphasize the importance of 
conducting training and exercises using Emergency Management 
Performance Grant (EMPG) funds, and as such places a limit on the 
percentage of funding that can be spent on direct support of personnel 
salaries. Ensuring that public safety and emergency response functions 
are appropriately staffed at the State and local levels continues to 
remain a fundamental State and local government responsibility. As 
outlined in HSPD--8, Federal grants should contribute to new 
capabilities, not just offset the cost of permanent state and local 
employees.

Question 8: If the President's budget proposal is approved what are EP 
& R's plans for distribution of the EMPG funds to enhance state and 
local training and exercises?
Answer: DHS plans to distribute the Fiscal Year 2005 EMPG as part of a 
single, integrated overall grant application process, providing simpler 
access to funding while preserving all key aspects of the program, 
including guidelines for how funding may be used. The integration of 
Citizen Corps grants into ODP's State grant application process in 
fiscal Year 2004 provides a successful model on which to base the EMPG 
transition. Funding distributed to States under the EMPG grants will 
support a range of activities, including enhancing State and local 
training and exercises, in support of each state's Homeland Security 
Strategy.
    For the second year, the President's budget proposes to consolidate 
funding previously provided through the National Pre-Disaster 
Mitigation Fund and the National Flood Mitigation Fund (for the Flood 
Mitigation Assistance (FMA) program). The two funds are authorized in 
separate statutes, have separate regulations, have separate priorities, 
and are separately administered (although the programs are similar in 
several respects). The PDM program is supported by general revenue, 
while the FMA is supported by a fee assessed on flood insurance 
policies. The different sources make it important to keep the two 
programs separate, even for accounting purposes.

Question 9: If the funds are consolidated as proposed, how will the 
Federal Emergency Management Agency (FEMA) maintain separate 
accountability to ensure that the National Flood Mitigation Funds are 
used only for activities that, as set forth in the National Flood 
Insurance Reform Act of 1994 are in the best interests of NFIP?
Answer: For administrative ease the funding for Pre-Disaster Mitigation 
(PDM) and Flood Mitigation Assistance (FMA) are combined for purposes 
of the appropriation. At the Agency level, they are separated into the 
two statutorily authorized Funds servicing the respective programs. If 
appropriations are consolidated as proposed, FEMA will continue to 
maintain separate accountability through distinct financial management 
program codes. This will ensure that the National Flood Mitigation Fund 
grants are for State and community flood mitigation plans and projects 
only as set forth in the National Flood Insurance Reform Act of 1994. 
It will also ensure that the two funds will be accounted for 
separately.
    Between 200 and 300 FEMA staff positions are supported (in whole or 
in part) by the National Flood Insurance Fund. This practice started in 
1990 and is an important but little-known aspect of the NFIP's claim to 
being self-supporting. However, it means that just 4.4 million citizens 
are paying for a significant number of federal employees. Those 
employees directly work on the NFIP, floodplain management, and flood 
hazard mitigation further the purposes of the NFIP, and are necessary 
to maintain and manage an effective National Flood Insurance Program 
and to further reduction of the impacts of flooding. At this time when 
a number of FEMA staff have been detailed to other functions, it is 
unclear how many positions are funded by the NFIP, what their functions 
are, and how they relate to the NFIP.

    Question 10: How many FEMA staff positions are supported by income 
from the NFIP's 4.4 million policyholders in fiscal year 2004? How many 
FEMA staff positions are proposed to be supported by the NFIP's in 
fiscal year 2005?
Answer: For fiscal year 2004, the National Flood Insurance Program 
(NFIP) funds 271 flood staff positions. Additionally, FEMA requested 
271 NFIP staff positions for fiscal year 2005.

Question 11: Please provide the Subcommittee with a list that 
identifies these positions by location in FEMA's organizational 
structure, including regional offices, and by their functions as they 
relate to the NFIP. Please indicate if there are any staff that have 
been detailed to other FEMA or DHS functions, but continue to be funded 
by the NFIP.
Answer: At FEMA Headquarters, there are 68 insurance employees and 66 
floodplain management employees for a total of 134. This number 
includes a staff position in the Office of General Counsel that focuses 
on NFIP legal issues and an employee detailed to FEMA's Office of Plans 
and Programs whose primary responsibility is to facilitate the 
preparation, review, and evaluation of the NFIP's budget and 
performance. Additionally, there are 137 floodplain management 
employees in FEMA's ten regional offices. These employees provide 
support and direction for floodplain management, flood hazard 
mitigation, and flood hazard identification activities with State and 
local governments. A breakdown by region is provided below.
    Region I-11
    Region II-13
    Region III-15
    Region IV-21
    Region V-14
    Region VI-20
    Region VII-11
    Region VIII-10
    Region IX-13
    Region X-9
    Although we have increased our focus on the immediate threat of 
terrorism, natural disasters are the prevalent emergencies that state 
and local governments deal with daily. In February 2003, a law took 
effect changing the post-disaster Hazard Mitigation Grant Program 
formula from 15 percent to 7.5 percent of disaster costs. This change 
has cut in half the opportunities to mitigate disasters, especially in 
areas that have experienced multiple federally-declared disasters. In 
response to questions for the Subcommittee, you state that the 
President's request to implement both pre- and post-disaster mitigation 
programs gave you the best of both worlds, and would help you to 
mitigate disaster damage. Using your budget estimates for the average 
annual cost of disaster and emergency declarations ($1.656 billion), an 
additional $124 million would be available for post disaster mitigation 
projects in fiscal year 2005 if the formula for this program was 
restored to 15 percent.

Question 12: In what ways would mitigation across the nation improve by 
restoring the Hazard Mitigation Grant Program formula back to 15 
percent?
Answer: The President's Fiscal Year 2005 budget provides the correct 
balance between pre- and post-disaster mitigation funding. Pre-disaster 
mitigation is available to all States on a competitive basis and allows 
mitigation projects to be completed prior to a disaster, thus lessening 
the loss of lives and property if a disaster strikes. In addition, 
States are able to address mitigation projects through the post-
disaster Hazard Mitigation Grant Program (HMGP).
    In response to a question from the Subcommittee, you state that 
FEMA continues to respond to disasters in exactly the way it has in the 
past.

Question 13: In the future, as the National Response Plan becomes more 
fully implemented, will FEMA continue to respond exactly the way it has 
in the past? The National Response plan calls for the designation and 
integration of a Principal Federal Official (PFO), appointed by the 
Secretary of DHS, to lead the Department's efforts in response to a 
disaster. Have any PFO's been dispatched to represent DHS in federally 
declared disasters? What is the proposed relationship between the PFO 
and the Federal Coordinated Officer--who is appointed by the President?
Answer: The Secretary has not designated a Principal Federal Official 
(PFO) for a Presidentially declared disaster or emergency to date. 
Federal Coordinating Officers (FCOs) have continued to be appointed as 
in the past. As stated in the Initial National Response Plan, for 
incidents of national significance, the Secretary may designate a 
Federal officer to serve as the PFO to act as his representative 
locally and to coordinate Federal activities. The roles and 
responsibilities of the PFO include:
        <bullet> Representing the Secretary of Homeland Security as the 
        senior Federal official on-scene to enable the Secretary to 
        carry out his role as the PFO for domestic incident management;
        <bullet> Ensuring overall coordination of Federal domestic 
        incident management activities and resource allocation on 
        scene, ensuring seamless integration of Federal incident 
        management activities in support of State, local and tribal 
        requirements;
        <bullet> Providing strategic guidance to Federal entities and 
        facilitating interagency conflict resolution as necessary to 
        enable timely Federal assistance to State, local, and Tribal 
        authorities;
        <bullet> Serving as a primary, although not exclusive, point of 
        contact for Federal interface with State, local, and Tribal 
        government officials, the media, and the private sector for 
        incident management;
        <bullet> Providing real-time incident information, through the 
        support of the Federal incident management structure on-scene, 
        to the Secretary of Homeland Security through the Homeland 
        Security Operations Center (HSOC) and the Interagency Incident 
        Management Group (IIMG), as required; and
        <bullet> Coordinating the overall Federal public communications 
        strategy at the State, local and Tribal levels and clearing 
        Federal interagency communications to the public regarding the 
        incident
    The PFO is selected by the Secretary. The Secretary will provide 
formal notification of the appointment of the PFO to Governor(s) of 
affected State(s) and to Federal departments and agencies. A PFO can be 
pre-designated to support a specific jurisdiction, or a DHS Regional 
Director (DHS RD) may be tapped to serve as a PFO depending on the 
situation. It is most likely that a PFO will be appointed only for 
incidents or high visibility events with significant national or 
regional implications such as significant terrorist events causing 
considerable destruction, catastrophic natural disasters, and complex 
non-Stafford Act emergencies.
    The PFO provides senior leadership, strategic guidance, and 
operations integration for catastrophic events, terrorist incidents, 
and other high visibility, multi-state, multi-jurisdiction events. The 
FCO, on the other hand, provides the leadership for managing Federal 
resource support in a multi-hazard context. When both a PFO and an FCO 
have been assigned to a specific incident, the FCO will coordinate with 
the PFO and work closely with representatives of other Federal 
agencies. In situations where a PFO has not been assigned, the FCO 
leads the Federal components of the Joint Field Office (JFO) and works 
in partnership with the State Coordinating Officer (SCO).

Question 14: Recently (March 1, 2004), DHS announced that it had 
activated Homeland Security Task Force Southeast (HSTF-SE) to provide a 
single command and support structure to oversee increased operations in 
the Windward Pass and coastal South Florida as a precautionary response 
to the situation in Haiti. FEMA was identified as a participant in this 
task force and the ``normal'' disaster response structure that you 
believe FEMA still utilizes? Are these ``task forces'' identified in 
the National Response Plan, and if so, what is their role?
Answer: FEMA is a full participant in the Caribbean mass migration 
contingency planning effort. Other components within DHS have primary 
responsibility and authority for response to such a contingency. This 
includes the Immigration and Nationality Act, as well as other 
authorities. FEMA supports the response of these other components and 
is prepared to act within the scope of its authorities in the event 
that contingencies arise that establish the necessary predicate for a 
Stafford Act declaration.
    Homeland Security Task Force Southeast is part of contingency 
planning for a Caribbean mass migration. The essential role of the Task 
Force is to integrate the capabilities and activities of DHS components 
into a unified response effort with other entities that have relevant 
responsibilities for mass migration. Once the National Response Plan 
(NRP) is promulgated, other specific Federal interagency emergency or 
incident management plans will require modification to ensure full 
alignment with the NRP structure. Caribbean mass migration planning 
will be subject to this requirement for alignment.
    The Subcommittee is concerned that the legacy FEMA people and 
programs are losing core areas of responsibility as DHS continues to 
grow. The National Response Plan and the National Incident Management 
System no longer retain a heavy emergency management focus, the first 
responder grant function has been moved to ODP, and the regular 
interaction between FEMA and state and local personnel has been, in 
part, taken over by other components.

Question 15: Can you explain why FEMA, which was a very well performing 
agency before DHS, in not leading these efforts?
Answer: Substantial effort is being made to consolidate and integrate 
all of the different disaster response programs, teams, and assets in 
DHS. FEMA is designing new approaches and implementing new efficiencies 
that will result in a more unified, integrated, and comprehensive 
approach to all-hazards disaster response. The improved coordination of 
all response programs and efforts to introduce a new response culture 
will make DHS better able to elevate operational disaster response 
capabilities to a whole new level of proficiency, one that will further 
the principles of the NRP and NIMS and better serve the American 
people.
    Title V of the Homeland Security Act of 2002 makes the Under 
Secretary of the Emergency Preparedness & Response responsible for 
``helping to ensure the effectiveness of emergency response providers 
to terrorist attacks, major disasters, and other emergencies'' and for 
``building a comprehensive National Incident Management System [. . . 
for . . .] such attacks and disasters.'' The Act also requires FEMA to 
retain its functions and responsibilities under the Stafford Act.
    FEMA continues to support all-hazards emergency preparedness, 
training, and exercises on the basis that the management of the 
consequences from any event has numerous essential elements that may 
need to be supplemented by special actions for some events.
    Operational planning is a key Preparedness function, and FEMA has 
years of experience and accumulated expertise planning for, responding 
to and recovering from emergencies and disasters. Accordingly, FEMA was 
asked to lead a Departmental and interagency effort to develop the 
National Response Plan--Catastrophic Incident Annex (NRP-CIA).
    FEMA is responsible for leading an intra-departmental and 
interagency effort to stand up the NIMS Integration Center and to 
promulgate NIMS across the Nation. FEMA played a large role in the 
development of the NIMS document. In addition, FEMA continues to work 
closely with ODP and the grants one-stop shop to support the 
programmatic efforts to administer these grants as intended by 
Congress.
    In your prepared testimony, you stated that one of your fiscal year 
2004 priorities is to publish ``equipment interoperability standards.'' 
There seem to be a number of DHS organizations working on these 
standards.

Question 16: What is the division of responsibility for developing 
standards among EP & R, the Science and Technology Directorate, the 
Office of Domestic Preparedness, and any other DHS organizations 
involved in developing standards?
    Answer: Several directorates within DHS will be addressing 
standards development and coordination between these directorates is 
vital.
    The Science and Technology Directorate (S & T) will develop and 
coordinate the adoption of standards and appropriate evaluation methods 
to meet homeland security needs. S & T will work with EP & R and ODP to 
ensure appropriate standards are available for all first responder 
equipment needs.
    EP & R will work closely with S & T to identify emergency 
management standards and determine critical gaps in standards that need 
to be addressed by the Department. EP & R will build upon existing 
research to identify critical standards by each discipline and function 
and gaps among those standards that impact the ability of emergency 
managers and responders to provide a consistent and uniform response to 
any incident. As part of its strategy, EP & R will develop a plan to 
address the gaps and shortfalls identified in order to provide a 
comprehensive analysis to S & T to ensure the Department uses a 
coordinated approach to address standards development in those areas.
    EP & R in collaboration with relevant agencies and organizations 
responsible for the development of standards will develop interim 
``field standards'' and identify the responsible entity for 
implementing the required standard. This process will be integrated 
into the NIMS and the NIMS Integration Center (NIC). The NIC will 
coordinate the development of standards by facilitating the development 
and publication of national standards, guidelines, and protocols for 
the qualification and certification of emergency responder and incident 
management personnel as appropriate.

Question 17: What is the role of the EP & R Directorate in the 
Department's interoperability communications plans? Specifically, how 
is your Directorate involved with the Secretary's announced plans to 
deploy interim technologies for patching different radio systems?
Answer: The Science and Technology Directorate is leading the RapidCom 
initiative, under the auspices of the SAFECOM Program. This technical 
assistance effort will leverage existing technologies and funding in 
ten cities to reach an interim emergency-level communications 
interoperability capacity.
    This effort is distinct from grants awarded by EP & R in 2003, in 
coordination with the Department of Justice COPS office and Project 
SAFECOM, to provide competitive funding to jurisdictions for 
demonstration projects to increase communications interoperability 
among the fire service, law enforcement, and emergency medical service 
communities. Thirty-one awards of up to $6,000,000 each were awarded to 
various jurisdictions. SAFECOM common grant guidance was incorporated 
in both the COPS and the FEMA programs. These projects are currently 
underway, with a scheduled completion by date of September 2004. The 
lessons learned will guide future communications equipment funding so 
that all purchases meet an interoperability performance standard. While 
none of the 17 FEMA grantees are part of part RapidCom, three of the 13 
COPS grantees are.

Question 18: What equipment will EP & R publish standards for?
Answer: EP & R is not publishing any standards for equipment. However, 
EP & R is working closely with the Science and Technology Directorate 
on its development of equipment standards for first responders.

Question 19: When exactly will these standards be published? Will they 
be actual standards, or ``technical specifications'' as stated by the 
Secretary on February 23, 2004?
Answer: EP & R is not publishing any standards for equipment. EP & R is 
working closely with the Science and Technology Directorate on its 
equipment standards for first responders.

Question 20: Who should state and local governments look to within DHS 
for definitive guidance on equipment standards?
Answer: S & T will provide definitive guidance on equipment standards, 
with significant input, guidance, and coordination on emergency 
management-related standards from EP & R.
    DHS and EP & R Directorate do not appear to be taking an active 
role in preparing for the threat of bioterrorism. The Department of 
Health and Human Services is taking the lead in Project BioShield and 
the Strategic National Stockpile. DHS is eliminating the Metropolitan 
Medical Response System, by suggesting that ongoing programs at HHS 
will meet the goals of that program. But according to the ANSER 
Institute, ``there has been inadequate connection between DHS and HHS 
to prepare for and respond to biological terrorism.''

Question 21: What formal mechanisms have been established between DHS 
and HHS (e.g., work groups, task forces) to coordinate the preparedness 
and response for bioterrorism incidents? Please provide the 
Subcommittee with any documents related to this coordination.
Answer: The NRP identifies roles and responsibilities among key Federal 
agencies that participate in response to a disaster. The NRP includes 
formal mechanisms between DHS and HHS intended to coordinate the 
preparedness and response for bioterrorism incidents. HHS and DHS are 
currently working together on various aspects of the NRP, including 
Emergency Support Function #8--Health and Medical Services. In addition 
to collaboration on developing these mechanisms, the threat of 
bioterrorism is being addressed further by the two agencies via several 
national programs, such as MMRS, the National Disaster Medical System 
(NDMS), and the National Response Plan--Catastrophic Incident Annex 
(NRP-CIA). Additionally, a surge capacity working group has been formed 
with stakeholders from DHS, HHS, and various Federal agencies.

    Question 22: Have DHS and HHS developed a work-plan to address the 
threat of bio-terrorism, including the distinct roles and 
responsibilities of the respective agencies? What mechanisms are in 
place to ensure there is no duplication of effort? For example, with 
respect to your proposal for enhancing medical surge capabilities, what 
work--if any--has already been completed by HHS, and how are you 
integrating that work into your proposal?
Answer: DHS and HHS have collaborated on many elements of the NRP that 
establish the strategy for a coordinated national approach to a 
catastrophic event, including bioterrorism. Additionally, the 
coordination of bioterrorism funding through SLGCP ensures all 
available resources are leveraged for maximum efficiency.
    A surge capacity working group has been formed with stakeholders 
from DHS; a variety of HHS entities including NDMS, the Health 
Resources and Services Administration (HRSA), and the Substance Abuse 
and Mental Health Services Administration (SAMSA); and various Federal 
partners, including the Department of Defense and the Department of 
Veterans Affairs. In addition to providing solutions to deal with surge 
capacity during a bioterror incident, this effort is currently being 
incorporated into the DHS-led National Response Plan--Catastrophic 
Incident Annex (NRP-CIA).
    The National Response Plan states that ``private business and 
industry play a significant role in helping to mitigate the physical 
effects and economic costs of domestic incidents.'' According to the 
Plan, the Secretary of Homeland Security would urge businesses to 
identify their risks, develop contingency plans and to take actions to 
enhance their overall readiness.'' In response to questions from the 
Subcommittee, you stated that the Business and Industry Preparedness 
and Response Partnership was being used to reach out to the private 
sector.

Question 23: At this point, can the Department offer private industry 
any risk identification guidelines? If so, please provide these 
guidelines to the Subcommittee.
Answer: The Department through FEMA and many other public and private 
sector organizations developed the NFPA 1600 Standard on Disaster/
Emergency Management and Business Continuity Programs, 2004 edition and 
earlier editions. These guidelines are available on the web at 
www.nfpa.org., In addition the Department, through the Protective 
Security Division, has worked with various infrastructure sectors to 
identify appropriate vulnerability assessment tools for use by those 
sectors. In addition, FEMA has developed guidance with the private 
sector for risk identification through FEMA's Mitigation Division and 
specific Preparedness programs such as the Chemical Stockpile Emergency 
Preparedness Program and Radiological Emergency Preparedness Program. 
This guidance can be found at www.fema.gov.

Question 24: How are private sector representatives involved in 
defining their roles in emergency preparedness and response?
Answer: Private Sector representatives are involved in defining the 
roles by building relationships with each other and with government 
entities, by reviewing the Initial National Response Plan, the draft 
National Response Plan and their own business continuity plans.
    The Flood Forecasting and Warning System Act of 2002 (P.L. 107-253) 
authorized the National Oceanic and Atmospheric Administration (NOAA), 
through the United States Weather Research Program, to conduct research 
and development, training and outreach activities to improve inland 
flood forecasting.

Question 25: To what extent has this act been implemented, and how has 
FEMA utilized information provided by NOAA to improve flood 
forecasting, and better prepare impacted populations for flood events?
Answer: The NOAA National Weather Service (NWS) Advanced Hydrologic 
Prediction Service (AHPS) has been implemented at ten forecast 
locations in eastern North Carolina, and a web interface now provides 
access to AHPS products across the nation. Inundation maps showing 3-
day flood forecasts for the Tar River basin in North Carolina were 
implemented prior to the landfall of Hurricane Isabel. A social 
scientist was contracted to work with North Carolina emergency managers 
to evaluate and suggest improvements to the existing NWS flood severity 
index. A grant was issued to North Carolina State University for a 
collaborative research project to assess long-term trends in the 
frequency and severity of inland flooding caused by tropical cyclones.
    FEMA, through the National Hurricane Program, is currently 
incorporating the AHPS data into HURREVAC, a State and local emergency 
management decision assistance tool develop by FEMA and the United 
States Army Corps of Engineers (USACE). All flood forecast points in 
North Carolina and Florida are now available in HURREVAC in much the 
same format as AHPS products (i.e., graphical hydrographs). The next 
step is to include Texas to Maine and the Virgin Islands and Puerto 
Rico in future releases of HURREVAC.
    House report language directed FEMA to update and disseminate 
guidance on outdoor warning and mass notification systems, but this is 
several months overdue. Especially as we enter tornado and hurricane 
seasons, it is imperative that this guidance to state and local 
governments be completed.

Question 26: Can you tell us where this guidance is, and what is the 
division of labor between EP & R and the IAIP Directorate?
Answer: The guidance, a revision and update of Civil Preparedness Guide 
1-17, Outdoor Warning Systems Guide, first published March 1, 1980, is 
currently under an extensive fast-track DHS review, including a review 
by IAIP, and will soon be released for a review by other Federal 
agencies.

Questions for the Record From The Hon. Jim Turner For The Hon. Michael 
                                D. Brown

    As you know, the Emergency Management Performance Grants (EMPG) 
Program is an enormously important grant mechanism that supports the 
state and local emergency planners, based on a 50 percent cost match. 
The fiscal 2005 President's Budget request reduces the funding level 
for this program from current levels, and places a 25 percent limit on 
what can be spent on personnel. According to the National Emergency 
Management Association this budget, if implemented, would lead to a 
loss of 60 percent of state emergency managers and even more at the 
local level. When I spoke to the National Emergency Management 
Association on February 12, they told me of their strong opposition to 
this proposal, and of the devastating impact it would have on their 
profession.

    Question 27: Please describe DHS's rationale for capping the use of 
EMPG funds for personnel at 25 percent.
Answer: The Administration's fiscal year 2005 request for the Emergency 
Management Performance Grants is $170 million, which is higher than any 
previous request for this program. The funds will be used to assist the 
development, maintenance, and improvement of State and local emergency 
management capabilities, which are key components of a comprehensive 
national emergency management system for disasters and emergencies that 
may result from natural disasters or accidental or man-caused events.
    As you note, though, the request does cap the amount that States 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. As outlined in 
HSPD-9, the Administration believes that Federal preparedness grants 
should build new state and local capabilities, not just subsidize 
permanent state and local employees. Accordingly, the request shifts 
the emphasis to Federal support for planning while properly aligning 
responsibility for staffing and salaries with the States and local 
governments. The Administration and Department have consistently 
supported the idea that homeland security is a shared responsibility 
between Federal, State, and local governments. Additionally, it is 
important to remember that we are operating in a fiscal and security 
environment where we must ensure that maximum security benefits are 
derived from every security dollar. To do that, we must be able to take 
a new look at the way in which we allocate resources, including sharing 
financial responsibility with our State and local partners.

Question 28: Based on the personnel reductions that will results from 
these cuts, how does EP & R intend to conduct effective response and 
recovery operations without professional partners at the state and 
local level?
    Answer: While the EMPG program has traditionally supported 
comprehensive emergency management at the State and local levels, 
encouraging long-term improvements of mitigation, preparedness, 
response, and recovery capabilities for all hazards requires that 
states and localities assume responsibility for supporting long-term 
staff. The Administration has always framed improvements in emergency 
response and homeland security as a shared partnership, in which 
Federal funds should be an encouragement to greater state and local 
efforts, not simply a budget offset. Funds provided under the EMPG may, 
and should, be used to continue support activities that contribute to 
capability to prevent, to prepare for, and to recover from natural and 
man-made disasters. Given that this program is designed to address 
``all-hazards'' planning, including terrorism, it complements the 
allowable uses of funds in other ODP grant programs, including the 
State Homeland Security Grant Program (SHSGP) and the Urban Areas 
Security Initiative (UASI).
    DHS does not appear to be taking an active role in preparing for 
the threat of bioterrorism. The Department of Health and Human Services 
is taking the lead in Project BioShield and the Strategic National 
Stockpile. DHS is eliminating the Metropolitan Medical Response System, 
by suggesting that ongoing programs at HHS will meet goals of that 
program. But according to the ANSER Institute, ``there has been 
inadequate connection between DHS and HHS to prepare for and respond to 
biological terrorism.'' These problems were apparent in the TOPOFF2 
exercise, when players in the exercise were unable to determine what 
federal agency had the final authority to approve the deployment of the 
Strategic National Stockpile.

    Question 29: How is the Department retaining response capabilities 
to deal with a serious bioterrorism event or public health emergency? 
Who has the lead responsibility for planning and preparing for a major 
bio attack?
Answer: The Homeland Security Act of 2002 and Homeland Security 
Presidential Directive-5 (HSPD-5) state that the Secretary of the 
Department of Homeland Security is the ``principal Federal official for 
domestic incident management'' with responsibility for ``coordinating 
Federal operations within the United States to prepare for, respond to, 
and recover from terrorist attacks, major disasters, and other 
emergencies.'' DHS/FEMA also has specific authority to provide for the 
needs of victims of public health emergencies through the National 
Disaster Medical System. The Department of Health and Human Services 
(HHS) also has a major role in planning and preparing for a major 
biological attack or public health emergency. Through our extensive 
partnerships with state, local and tribal governments and the private 
sector, as well as other Federal departments, we are working to ensure 
the highest level of protection, preparedness and response for the 
country and the citizens we serve.
    DHS/FEMA maintains resources and capabilities that can be activated 
and deployed to support a mass-casualty incident, including:
        - Disaster Medical Assistance Teams
        - National Medical Response Teams
        - Veterinary Medical Assistance Teams
        - Disaster Mortuary Operational Response Teams
        - Burn Specialty Teams
        - Medical/Surgical Response Team
        - Numerous additional specialized medical personnel
        - Pre-Positioned Disaster Supplies to support mass care 
        operations
        - Urban Search & Rescue task forces to support rescue 
        operations
        - Mobile Emergency Response Support (MERS) capabilities to 
        support command/control/communications

    Additionally, other DHS agencies provide capabilities for detecting 
and responding to a biological/public health emergency, such as:
        - The Science and Technology Directorate maintains air-
        monitoring equipment to detect airborne biological pathogens in 
        major cities throughout the country and is developing the 
        BioSense program.
        - The Interagency Modeling and Atmospheric Analysis Center 
        (IMAAC) provides a single point for the coordination and 
        dissemination of federal dispersion modeling and hazard 
        prediction products that represent the federal position during 
        an incident of national significance.
    HHS has the authority to deploy the Strategic National Stockpile. 
In addition, HHS is required to deploy the Stockpile ``as required by 
the Secretary of Homeland Security to respond to an actual or potential 
emergency.' Project BioShield, just enacted into law, is a 
collaborative program between DHS and HHS to develop countermeasures to 
biological and chemical agents that may be used in a terrorist attack. 
The products of the BioShield program will be stored in the Strategic 
National Stockpile.
    Many on the Select Committee have supported Secretary's efforts to 
create a one-stop shop for grant information as a way to help the state 
and local applicants. We are concerned, however, that the real 
expertise in emergency preparedness and response resident in your 
Directorate is too far removed from the management of these grants.

Question 30: What concrete mechanisms are in place to link your 
Directorate, including the regional offices, into the grant 
development, application, and evaluation process?
    Answer: FEMA works closely with ODP on all grant programs that have 
transferred from FEMA to ODP. We hold bi-weekly meetings of the senior 
Fire Grant Program Staff, ODP, FEMA Financial Management, Information 
Technology and the Under Secretary's Policy office to discuss 
transition issues. There is also continuous email and phone dialogue.

Question 31: EP & R would appear to be in the best position to 
determine the needs of the emergency management and fire communities. 
How is your Directorate involved in formulating the annual budgets for 
emergency management grant programs?
    Answer: The needs of the emergency management and fire service 
communities are considered as part of the broader effort to allocate 
and coordinate grants for first responders and homeland security. FEMA 
works closely with ODP on all grant programs that have transferred from 
FEMA to ODP.

Question 32: Will there be any difference between the way the FIRE 
Grants have been run in the past and how they will operate after the 
transfer to ODP? If there will be a change in any aspect of this 
program, please describe this change.
    Answer: The transfer to ODP has maintained the essential features 
of the Assistance to Firefighters Program, such as peer review and 
direct funding for fire departments. The primary change has been to 
give greater attention to applications from fire departments seeking to 
improve their readiness for chemical, biological, radiological, or 
nuclear events (CBRNE), or other catastrophic events. The Department 
has also sought to increase the maximum award amount for larger 
jurisdictions to better reflect the needs of major cities. FEMA 
continues to work closely with ODP in the administration of this 
important program.

                                 <all>

</pre></body></html>
